<html>
<title> - OPPORTUNITIES EXIST TO IMPROVE SENIOR EXECUTIVE SERVICE DIVERSITY IN LEGISLATIVE BRANCH AGENCIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 OPPORTUNITIES EXIST TO IMPROVE SENIOR EXECUTIVE SERVICE DIVERSITY IN 
                      LEGISLATIVE BRANCH AGENCIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2007

                               __________

                           Serial No. 110-67

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-008 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director





























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 13, 2007................................     1
Statement of:
    Bransford, William L., general counsel, Senior Executives 
      Association; Shirley A. Jones, president, Blacks in 
      Government, GAO USACE Chapter; and Lieutenant Sharon 
      Blackmon-Malloy, president, U.S. Capitol Black Police 
      Association................................................    91
        Blackmon-Malloy, Sharon..................................   103
        Bransford, William L.....................................    91
        Jones, Shirley A.........................................    96
    Copeland, Curtis W., Specialist in American National 
      Government, Congressional Research Service.................     6
    Elzy, Nadine, Director, Office of Equal Employment 
      Opportunity, Government Printing Office; Ronald Stroman, 
      Managing Director, Office of Opportunity and Inclusiveness, 
      Government Accountability Office; Teresa Bailey, Director, 
      Office of Equal Employment Opportunity/Conciliation 
      Programs, Office of the Architect of the Capitol; Stephanie 
      Ruiz, Director, Human Resources, Congressional Budget 
      Office; Dennis Hanratty, Director, Human Resources 
      Services, Library of Congress; and Daniel Nichols, 
      Assistant Chief of Police, U.S. Capitol Police.............    22
        Bailey, Teresa...........................................    45
        Elzy, Nadine.............................................    22
        Hanratty, Dennis.........................................    60
        Nichols, Daniel..........................................    71
        Ruiz, Stephanie..........................................    51
        Stroman, Ronald..........................................    29
Letters, statements, etc., submitted for the record by:
    Bailey, Teresa, Director, Office of Equal Employment 
      Opportunity/Conciliation Programs, Office of the Architect 
      of the Capitol, prepared statement of......................    47
    Blackmon-Malloy, Lieutenant Sharon, president, U.S. Capitol 
      Black Police Association, prepared statement of............   106
    Bransford, William L., general counsel, Senior Executives 
      Association, prepared statement of.........................    93
    Copeland, Curtis W., Specialist in American National 
      Government, Congressional Research Service, prepared 
      statement of...............................................     8
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     4
    Elzy, Nadine, Director, Office of Equal Employment 
      Opportunity, Government Printing Office, prepared statement 
      of.........................................................    25
    Hanratty, Dennis, Director, Human Resources Services, Library 
      of Congress, prepared statement of.........................    62
    Jones, Shirley A., president, Blacks in Government, GAO USACE 
      Chapter, prepared statement of.............................    98
    Nichols, Daniel, Assistant Chief of Police, U.S. Capitol 
      Police, prepared statement of..............................    73
    Ruiz, Stephanie, Director, Human Resources, Congressional 
      Budget Office, prepared statement of.......................    53
    Stroman, Ronald, Managing Director, Office of Opportunity and 
      Inclusiveness, Government Accountability Office, prepared 
      statement of...............................................    31


 OPPORTUNITIES EXIST TO IMPROVE SENIOR EXECUTIVE SERVICE DIVERSITY IN 
                      LEGISLATIVE BRANCH AGENCIES

                              ----------                              


                       TUESDAY, NOVEMBER 13, 2007

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Illinois, Norton, and 
Clay.
    Staff present: Tania Shand, staff director; Caleb 
Gilchrist, professional staff member, Lori Hayman, counsel; 
LaKeshia Myers, editor/staff assistant; Susan Ragland, GAO 
detailee; Teresa Coufal, clerk; and Leneal Scott, information 
officer.
    Mr. Davis of Illinois. The subcommittee will come to order. 
Mr. Marchant, I understand, is having some difficulty with his 
flight, therefore, he may get here as we continue, but 
currently, he has not made it yet. And we'll just kind of play 
that by ear.
    So let me thank those of you who have come and I want to 
welcome all of the witnesses, all of those who are in 
attendance. I want to welcome to you the Federal Workforce, 
Postal Service, and District of Columbia Subcommittee hearing 
on Senior Executive Service, women and minorities are 
underrepresented in most legislative branch agencies. The 
hearing will examine diversity at the executive level positions 
in legislative branch agencies and explore agency succession 
planning efforts, including the extent to which there is 
diversity at the GS-15 feeder pool levels or throughout the 
agencies' work force. Hearing no objection, the Chair and any 
other Members who are here will make opening statements and all 
Members will have 3 days to submit statements for the record.
    Good afternoon, the subcommittee hearing is being held to 
examine diversity in the senior ranks of congressional support 
agencies. Democratic legislatures are traditionally supposed to 
represent a broad spectrum of the national population to assure 
that they will reflect the interest and outlooks of all people. 
Therefore, while it is important that the Congress itself 
represents the national diversity, it is equally important that 
the agencies that support Congress be broadly representative of 
the people it serves. Skilled persons reflecting all of the 
American people should have a hand in supporting the 
legislative process, whether it is to assist the Congress in 
making laws, or in overseeing the operations of the executive 
branch. Diversity in the senior levels of executive and 
legislative branch agencies brings a variety of perspectives 
and approaches to policy development and implementation.
    Today the subcommittee released a report, the first of its 
kind, analyzing the racial and gender diversity of the senior 
executive core of six legislative branch agencies: The 
Government Accountability Office [GAO]; the Library of Congress 
[LOC]; the Congressional Budget Office [CBO]; the Government 
Printing Office [GPO]; the Capitol Police; and the Architect of 
the Capitol.
    The report, which was based on information provided to the 
subcommittee by these agencies, found that women and minorities 
in the Senior Executive Service [SES], are underrepresented in 
most legislative branch agencies. The SES, at each legislative 
branch agency, was less diverse in terms of minorities than its 
work force at a whole in fiscal year 2007, and less diverse in 
terms of women in four of the six agencies.
    Some agencies, GS-15 feeder or successor pools, were less 
diverse than their SES core. The report also found that in some 
agencies the average tolled compensation for minorities and 
women in fiscal year 2007 was less than their non minority and 
male counterparts. All of these agencies work for us, the U.S. 
Congress, while we can provide oversight of these agencies, we 
cannot monitor their day-to-day efforts to improve diversity in 
their agencies. That is the role of their respective diversity 
offices.
    Each legislative branch agency has a diversity office that 
exists to ensure that the agency's personnel policies and 
practices are fair, merit-based and promote the opportunity for 
all employees to maximize their contributions to the agency's 
mission. What Congress can do is ensure that these offices have 
effective programs in place to address the problems raised in 
the subcommittee report and the independence to do something 
about them.
    I will soon formally ask all legislative branch inspector 
generals to review the diversity offices of their sister 
agencies. The IGs will be tasked with reviewing the programs 
the diversity offices have in place to address diversity 
concerns, how these programs are being evaluated to determine 
if they are yielding the desired results, the accuracy of the 
dispute and discrimination data being reported to Congress, and 
whether the diversity offices are sufficiently independent of 
the agencies general counsel and agency head.
    Here are two examples of why it is necessary for Congress 
to take action. It is my understanding that employees at the 
LOC do not receive written performance appraisals. If this is 
the case, then on what basis are employees being promoted? How 
can an employee prove he or she was wrongly denied a promotion 
if their performance is not being documented? It is the 
responsibility of LOC's diversity office to raise these issues 
and challenge management on them.
    In 2006, GAO restructured its pay bands and promoted 
employees based, in large part, on performance ratings. GAO 
knew, however, before implementing the restructuring, that 
African-Americans were receiving lower performance ratings than 
their White counterparts. It comes as no surprise that the 
restructuring had and continues to have a negative impact on 
African-Americans. GAO's diversity office should have engaged 
in challenging management and ensuring that a restructuring did 
not take place that negatively impacted a group of employees. 
It apparently failed to do so.
    I will ask the legislative branch IGs to report their 
findings to the subcommittee in June 2008. Their reports will 
help determine if agency diversity officers have the 
programming and influence to address the disparities raised in 
the subcommittee report.
    I would like to caution the legislative branch agencies in 
comparing themselves to the executive branch when it comes to 
diversity in the SES. The executive branch is doing poorly in 
that regard and the legislative branch agencies are only doing 
slightly better. All of these agencies take pride in saying 
that they hire the best and the brightest. If that is the case, 
what is then preventing minorities and women from moving into 
their top ranks? Today's witnesses are here to help us answer 
that question, and I thank them for taking the time to do so.
    I will indicate again, though that all Members will have 5 
legislative days in which to submit statements for the record 
because of their inability to be here today.
    [The prepared statement of Hon. Danny K. Davis follows:]
 
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   Mr. Davis of Illinois. We will begin with our witnesses and 
our first witness is Dr. Curtis Copeland, who is currently a 
specialist in American National Government at the Congressional 
Research Service within the U.S. Library of Congress. His 
specific area of expertise is Federal rulemaking and regulatory 
policy. Welcome Dr. Copeland, we thank you for being here and 
you know the drill, you've done this so often. So if you would 
stand and raise your right-hand.
    [Witness sworn.]
    Mr. Davis. The record will reflect that the witness 
answered in the affirmative. And again, we thank you for your 
presence and for the work that you do and you may proceed.

    STATEMENT OF CURTIS W. COPELAND, SPECIALIST IN AMERICAN 
      NATIONAL GOVERNMENT, CONGRESSIONAL RESEARCH SERVICE

    Mr. Copeland. Thank you, Mr. Chairman. I am here today to 
present the data that were used in the subcommittee's report on 
racial and gender diversity and SES and SES-equivalent 
positions within six legislative branch agencies: GAO, LOC, 
CBO, GPO, the AOC and the Capitol Police. Most of my comments 
will be in terms of percentages and will be depicted in figures 
shown on these TV screens. However, it is important to realize 
that because of the relatively small size of each agency's SES 
core, a slight change in the number of minorities or women in 
the agencies can substantially effect the resulting 
percentages.
    Together, the six legislative branch agencies had a total 
of 346 SES officials during fiscal year 2007. Of these 
officials, 16.8 percent were minorities, about the same 
percentages in the executive branch, which had 16 percent. 
However, the legislative branch agencies had a somewhat higher 
percentage of women in their SES ranks, about 36 percent 
compared to 29 percent in the executive branch.
    The agencies differed substantially in their levels of SES 
diversity, as this first figure shows, less than 8 percent of 
the SES core at CBO were minorities compared to about 20 
percent at the LOC and AOC. The composition of the minorities 
of SES population at the agencies also differed. For example, 
four of the six agencies, all except GAO and the LOC, had no 
Asian senior executives in 2007. The six agencies differed 
greatly in the percentage of their SES who were women, ranging 
from less than 12 percent at GPO to more than 40 percent at LOC 
and GAO. To put these numbers into context, the subcommittee's 
report compared the diversity of the agency's SES core to the 
work forces as a whole.
    As this figure shows, none of the agencies SES core had as 
high a percentage as their overall work forces. And as this 
figure shows the percentage of SES who were women was less than 
in the total work force than four of the six agencies, all but 
the Capitol Police and the AOC. However, we should recognize 
that these two agencies also had the lowest percentage of women 
in their overall work forces.
    In some cases, there were substantial differences between 
the diversity of the agency's work forces as a whole and the 
diversity of their SES core. For example, whereas nearly 60 
percent of the GPO'S work force was minorities in 2007, the 
percentage of minorities in the agency's SES stood at about 12 
percent, nearly 50 percentage points lower.
    Another way to put these diversity figures into context is 
by looking at trends over time. This figure shows the--it soon 
will be up--shows the percentage of women in the legislative 
branch agencies SES has gone up somewhat since 2002, from less 
than 32 percent to nearly 36 percent. However, the trend line 
from minorities has been rather flat since 2002 going from 
16\1/2\-17\1/2\ percent to 16.8 percent, so the percentage of 
minorities in the legislative branch agencies actually went 
down by a little less than a percentage point.
    Most SESers are hired from the GS-15 ranks, as you 
mentioned, so that the diversity of these GS-15 successor pools 
can be provide an indication of how diverse the SES may be in 
the future.
    As this figure shows, the percentage of minorities at the 
GS-15 level was somewhat less than the percentage of the SES in 
four of the six legislative branch agencies, all but GAO and 
GPO. The situation for women was just the opposite. As this 
figure shows, the percentage of GS-15s who were women was 
greater than the women in the SES in four of the six agencies, 
all except the LOC and the AOC.
    Finally, the subcommittee's report examined the extent to 
which women and minorities, once they got into the SES, 
received comparable salaries, bonuses and awards when compared 
to non minorities and men.
    Table 3, which is on the last page of my written statement, 
provides the data on this--these salary comparisons or total 
compensation comparisons, it shows that on average, looking 
across all of the legislative branch agencies minorities and 
non minorities in the SES earned almost exactly the same total 
compensation. And women on average received about 1 percent 
more than men.
    However, there were some substantial difference in SES 
total compensation within the agencies. For example, women in 
the SES at the LOC received an average of $4,000 per year more 
than their male counterparts. On the other hand, at CBO, women 
received an average of about $10,000 less than men, and 
minorities received about $6,000 less than non minorities.
    Mr. Chairman, that concludes my prepared statement. I would 
be happy to answer any questions.
    [The prepared statement of Mr. Copeland follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Davis of Illinois. Well, thank you very much. And 
again, I want to thank you for being here.
    You note in your testimony that the percentage rate of 
women increased was slight, about 4 percentage points between 
2002 and 2007. If that rate was to continue, how long would it 
take for women to become, say, half of the legislative branch 
SES?
    Mr. Copeland. Right. The percentage of women rose from 31.6 
percent to 35.8 percent across the 6 legislative branch 
agencies, which is about 8/10 of a percentage point a year. So 
at that rate, given that they are currently at 35.8 percent, 
the--at that rate, it would take about 17 years for women to 
reach the 50 percent mark.
    Mr. Davis of Illinois. I guess that's about as long as it 
would take a snail to get to Baltimore. Do you know what a 
similar rate would be for the executive branch?
    Mr. Copeland. Yes, in the executive branch, the percentage 
of women in the SES rose from 25\1/2\ percent in 2002 to 28.9 
percent. And so at that rate, given the distance between that 
current statistic and 50 percent, it would take about 30 years 
for women in the executive branch SES to reach 50 percent.
    Mr. Davis of Illinois. I mentioned successor pools in my 
opening statement, of course you have mentioned successor 
pools. Why are these pools so important?
    Mr. Copeland. Primarily, because most at least in the 
executive branch, GAO has testified before this subcommittee 
back in May that most of the people in the SES were drawn from 
the GS-15 ranks. And so if you have a successor pool at the 
15--at the GS-15 level, which is less diverse, than the current 
SES and you draw in proportion to their representation in that 
GS-15 successor pool, then your SES in the future will actually 
become less diverse.
    Mr. Davis of Illinois. And so, in addition to work at the 
direct level of the SES, there is also seemingly need to do 
some work at the GS-15 successor pool level as well, would you 
agree?
    Mr. Copeland. I would agree that the subcommittee's report 
reaches the conclusion that in order for agencies to achieve 
levels of diversity that they currently don't have, they either 
have to increase the percentage of women and minorities in 
those successor pools, hire from outside of those successor 
pools or both.
    Mr. Davis of Illinois. Although I know that you can't take 
a position about what level of representation there should be 
if Congress did decide that SES should mirror the 
representation within the agency's work force as a whole, but 
what would you see as the advantages or disadvantages if that 
was to happen?
    Mr. Copeland. Well, certainly the literature suggests that 
having a leadership of an agency that is reflective of the work 
force as a whole has a number of advantages in terms of morale, 
in terms of following the management initiatives and so forth.
    The disadvantage of emulating the work force as a whole is 
if the work force as a whole isn't very diverse, then emulating 
that non diversity would yield a non diverse SES. So in fact, 
we have seen that in some of the agencies here, that some of 
the agencies in these six legislative branch agencies are much 
less diverse than others. And so an agency that is 85 percent 
White emulating that would yield an SES that would be 85 
percent White.
    Mr. Davis of Illinois. I know that for many years now, 
we've had great debate and great discussion about the concept 
of quotas, and yet we continue to have sort of as a goal the 
notion as it was reflected in the Preamble to the Constitution 
that all men, and I guess maybe at some point in time, women 
crept into that, I guess, if you go with the biblical 
definition, they say that when they say men, they also meant 
woman, or woman as they called it in some religious groups, but 
this notion that if America is to ever become the America that 
we all talk about, would it seem likely that some kind of 
something close to proportional share of opportunities as well 
as other things would ultimately come into being, would that 
make sense for the work force?
    Mr. Copeland. As you know, CRS doesn't take a position on 
any initiatives like that, but that certainly seems to be the 
guiding premise between a lot of the affirmative action 
programs that are place in agencies now, they are attempting to 
try and move toward that as a goal.
    Mr. Davis of Illinois. Well, let me thank you very much, we 
appreciate your testimony and we appreciate the continuing work 
that you and your agency does. We appreciate your being here.
    Mr. Copeland. Thank you.
    Mr. Davis of Illinois. We will then proceed to our next 
panel. I will go ahead and introduce them as they are being 
seated. Ms. Nadine Elzy is the Director of Office of Equal 
Employment Opportunity for the U.S. Government Printing Office, 
and as such, she directs the activities of the affirmative 
action programs, and counseling, and complaints processing 
divisions within the Office.
    Mr. Ronald Stroman is the Managing Director of GAO Office 
of Opportunity and Inclusiveness. Mr. Stroman is responsible 
for reviewing GAO's human capital policies and practices to 
ensure they are fair, merit-based and promote the opportunity 
for all GAO employees to maximize their contributions to the 
Agency's mission.
    Ms. Theresa Bailey is the Director of the Architect of the 
Capitol's Equal Employment Opportunity and Conciliation 
Programs. She has more than 20 years of progressively 
responsible human resources experience primarily in equal 
employment opportunity, affirmative employment, diversity and 
employee relations.
    Ms. Stephanie Ruiz is the Director of Human Resources for 
the Congressional Budget Office [CBO]. At CBO, she is 
responsible for human resources and payroll-related functions, 
including, but not limited to recruitment, EEO benefits and 
compensation. She also advises management on matters related to 
human resources and contributes to the development of the 
agency's budget which is 90 percent compensation.
    Mr. Dennis Hanratty is the Director for Human Resources 
Services at the Library of Congress. He has served in this 
position since August 2005. He has worked in human resources 
since 1993, first helping to manage all human resources 
functions and then managing human resources planning and 
technology.
    And Mr. Daniel Nichols was appointed as the assistant chief 
of police for the Capitol Police last January. Inspector 
Nichols entered duty with the U.S. Capitol Police in 1983. 
Assistant Chief Nichols is recognized as an accomplished leader 
who builds the effective teams as strong communication skills 
and uses innovative approaches to improve the protection of the 
capital, the congressional community and visitors.
    Thank you all for being here and if you would stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative. And please know that 
because the other Members are not here, it's not because they 
are not interested in the subject matter of what is taking 
place. This is our last week before we recess and people are 
trying to get as many things done as they possibly can. And so 
there's all kinds of activity taking place. There are some 
weather-related difficulty, some Members are experiencing in 
terms of getting back today, but we shall proceed and thank you 
so much and we will begin with you, Ms. Elzy.

STATEMENT OF NADINE ELZY, DIRECTOR, OFFICE OF EQUAL EMPLOYMENT 
   OPPORTUNITY, GOVERNMENT PRINTING OFFICE; RONALD STROMAN, 
  MANAGING DIRECTOR, OFFICE OF OPPORTUNITY AND INCLUSIVENESS, 
  GOVERNMENT ACCOUNTABILITY OFFICE; TERESA BAILEY, DIRECTOR, 
 OFFICE OF EQUAL EMPLOYMENT OPPORTUNITY/CONCILIATION PROGRAMS, 
    OFFICE OF THE ARCHITECT OF THE CAPITOL; STEPHANIE RUIZ, 
DIRECTOR, HUMAN RESOURCES, CONGRESSIONAL BUDGET OFFICE; DENNIS 
   HANRATTY, DIRECTOR, HUMAN RESOURCES SERVICES, LIBRARY OF 
 CONGRESS; AND DANIEL NICHOLS, ASSISTANT CHIEF OF POLICE, U.S. 
                         CAPITOL POLICE

                    STATEMENT OF NADINE ELZY

    Ms. Elzy. Good afternoon, Chairman Davis and members of the 
subcommittee. Thank you for inviting the Government Printing 
Office to be here. I'm Nadine Elzy, GPO's Director of EEO. My 
prepared statement at the same time has been submitted for the 
record, and with your permission, I will summarize my remarks.
    The head of the agency wanted to be here to testify before 
you today, but I'm glad that instead I am able to present the 
agency's testimony because for me, it is also a personal 
testimony. I am committed personally to insuring EEO.
    I came to GPO in December 1997 as the EEO Director. I must 
admit that I thought at that point I had stepped backward into 
a time warp. I asked another of the senior managers, do you 
think GPO is diverse? His response was, well, the agency is 
about 60 percent Black. I replied by asking, well, in your 
opinion, is the agency diverse, because when I go to a senior 
staff meeting, I am the only female and the only minority. I'm 
not saying the only Black executive, I meant the only minority 
and the only female, period. At that point in GPO's history, 
there were no females at the grade 15. There were four Black 
males, one Hispanic male and one Asian male at the GS-15. I 
define diversity as an organization that reflects the 
composition of our Nation.
    Let's fast forward 5 years to 2002. In 2002, we had 3,048 
employees, of those, 32 were at the grade 15, at that point we 
had 1 female, 4 Black males and 1 Asian male. There had been no 
changes whatsoever in the representation of females or 
minorities in the senior level.
    Now let's take one other jump that is to fiscal year 2007 
and like at the agency's diversity, GPO now has 23 females, 1 
Hispanic, 17 Blacks, 6 Asians and 1 Native American at the 
grade 15. These are some of the employees who are in a position 
to ascend to GPO's future senior level positions.
    In 2002, there was one female in SL as a GPO, in 2004 to 
2005, there were five females in SL positions. We currently 
have three females, at this level. Females represent 28.4 
percent of employees in the Federal executive service. They 
currently represent 12 percent at GPO.
    In 2002, there was one minority in the SLS. At the end of 
fiscal year 2007, we have three minorities employed in the SLS. 
Minorities represent 16 percent of employees in the Federal 
executive service, and 12 percent of employees in senior pay 
level positions at GPO.
    Do we have a way to go? Yes. Are we doing better than we 
did in 1997 in 2002? Most definitely. We are doing better by 
placing qualified minorities and females in positions at the 
grade 13 to 15, which will prepare them to become GPO's future 
leaders. We also want to ensure that these supervisors and 
managers know the agency's perspective on equity in the 
workplace. To ensure this, it was required by the head of the 
agency that during fiscal year 1997--2007, every manager and 
supervisor participate in EEO training. This was included as a 
core commitment in fiscal year 2007 for each senior level 
service employee.
    What are some of the other efforts we have made to improve 
our diversity? We have changed our outlook. We realize the 
importance of a diverse work force. We have expanded our 
college outreach efforts to include other than predominantly 
White college campuses. We are visiting Morehouse, Spelman, 
Clark Atlanta, Florida A&P, Prairie View, all of which are 
historically Black colleges and universities.
    We have included recruitment and outreach efforts to the 
University of Texas El Paso, New Mexico State, the University 
of New Mexico, the University of Miami, California State Los 
Angeles, all of which are Hispanic-serving institutions. We 
have recruited at the University of California Berkeley, which 
is the No. 1 public university in the country and which has a 
very diverse population.
    In an effort to ensure that our organization is 
representative of this country's diversity we have also hired 
students from the National Training Institute for the Deaf, the 
Rochester Institute of Technology. GPO has one of the largest 
percentage of employees with disabilities and those with 
targeted disabilities in the entire Federal Government. 
Presently almost 7 percent of GPO's population has a disability 
and almost 2 percent of those are employees who have targeted 
disabilities. The Federal Government's average is less than 1 
percent. GPO, ranked as one of the top five agencies for the 
employment of people with disabilities in the Federal 
Government.
    Again, we who are involved in EEO at GPO, and most 
especially, the Public Printer Tapella, clearly recognize that 
attaining diversity in GPO's management rights has a ways to 
go, and we are firmly committed to achieving this goal. As a 
result, I no longer feel as though I have walked backward into 
a time warp. I feel as though I am part of an agency that is 
moving forward with great speed and effort in the right 
direction. It is an organization that wants to utilize the 
skills and abilities of all of its employees to move us forward 
in the 21st century.
    Mr. Chairman and members of committee, this concludes my 
prepared statement and I will be pleased to answer any 
questions you may have.
    [The prepared statement of Ms. Elzy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much and we'll go to 
Mr. Stroman.

                  STATEMENT OF RONALD STROMAN

    Mr. Stroman. Thank you, Mr. Chairman, Ms. Norton. Good 
afternoon, I am Ron Stroman, the Managing Director of the 
Office of Opportunity and Inclusiveness at the U.S. Government 
Accountability Office. I am pleased to be here today to address 
an issue of such vital importance to GAO and to the Congress; 
diversity and our Senior Executive Service. GAO's mandate to 
support the Congress in meeting its constitutional 
responsibilities and to help improve the performance and insure 
the accountability of the Federal Government requires a highly 
skilled and diverse work force and leadership team.
    The diversity of our leaders increases the range of 
perspectives and problem solving approaches and creates higher 
value solutions for the Congress and for the American people. 
It is also true that it is important giving the increasing 
numbers of African American, Hispanic, Asian, women, Members of 
Congress, we issue reports of concern to those communities. It 
is important that we have representation of those communities 
involved in those report making processes.
    The Office of Opportunity and Inclusiveness was created by 
the comptroller in 2001 to transform the agency's diversity 
management practicers. Since then, we worked closely with the 
agency's top managers to improve diversity management practices 
at GAO. As an indicator of our success, GAO's analyst and 
specialist population is more diverse than the relevant 
civilian labor force, specifically the percentages of GAO 
analysts and specialist staff as of October 2006 exceeded the 
2000 relevant labor force percentages for African-American, 
Hispanic, Asian Americans, as well as for women.
    The diversity of our leadership team has also improved over 
the years. In fiscal year 2000, minorities represented 14 
percent of the SES and SL core. As of fiscal 2007 about 18 
percent of the SES SL members were minorities. Similarly the 
representation of minorities as a Band III, the SES feeder pool 
increased from 12 percent in 2000 to 19 percent in 2005. And 
the representation of women in the SES as well as at the Band 
III and Band II levels increased.
    Figure 2 and 3 in my testimony illustrates changes in the 
percentages of minorities and women respectively. We have made 
progress--although we have made progress, we still have work to 
do. We are committed to improving the representation of all 
minorities on the leadership team, in particular, the 
representation of Hispanic and Asian-American staff should be 
improved.
    As shown in table 1 of my testimony, percentages of GAO's 
Hispanic staff members at the SES level, and Asian staff at 
Band III level were lower than government wide percentages. 
However, for both these groups the percentages in the feeder 
pool staff at the lower level either equals or exceeded the 
government wide percentages.
    We therefore expect that we will be prepared to move these 
staff into senior management positions. GAO is also--ONI is 
also working closely with the GAO executive committee and teams 
managing directors to ensure sufficient opportunities of being 
developed.
    One of GAO's strategic objectives is to build and maintain 
a work environment that is fair and unbiased and inclusive and 
that offers the opportunity for all employees to realize their 
full potential. Several efforts and processes support our 
strategic commitment to diversity.
    As shown in figure 4 of my testimony our work force 
planning and recruitment processes, training opportunities, 
reviews of human capital processes and the selection process 
for the Senior Executive Service helped to support and maintain 
our efforts at diversity in the Senior Executive Service.
    Our agency's top leadership is fully committed to creating 
an environment that is fair and unbiased and has value 
diversity. Having a diverse work force and leadership cadre is 
an essential strategic component to GAO's success. While the 
diversity of our work force and leadership team has improved, 
there are areas that still need to be addressed. Our efforts to 
enhance diversity and Senior Executive Service coupled with 
incorporating our core diversity principles into our human 
capital processes should enable us to continue to improve 
diversity of our future leadership team. Thank you, Mr. 
Chairman.
    Mr. Davis of Illinois. Thank you very much, Mr. Stroman and 
we will proceed to Ms. Bailey.
    [The prepared statement of Mr. Stroman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   STATEMENT OF TERESA BAILEY

    Ms. Bailey. Good afternoon, Mr. Chairman, and members of 
the subcommittee. Thank you for this opportunity to discuss the 
AOC's efforts to identify, attract, hire and retain a diverse 
work force, as well as training to promote current stats to 
rise through the ranks to our executive level positions, 
thereby increasing diversity among the senior level management.
    The ALC is firmly committed to equal employment opportunity 
and affirmative employment. We recognize the inherent value of 
diverse and inclusive work force because we all benefit from 
working in an environment that brings together people with 
different background, skills and experiences.
    As one of our core values we strive to integrate diversity 
at every level as we carry out our mission to serve Congress 
and the American people. Even before the launch of our first 
strategic plan in 2003, the AOC has been dedicated to employing 
a diverse work force consisting of individuals with a variety 
of skills and institutional knowledge. We have defined our 
strategic goals and strategies in our human capital plan, which 
is an important component of our strategic plan.
    The human capital plan outlines activities that will ensure 
we are adequately addressing the needs of our work force while 
at the same time addressing the future needs of our 
organization by developing strong leaders and managers. One of 
the ways we are assisting our work force is developing the 
skills they need to become effective managers and grow their 
careers is through participation in our leadership development 
program. This program establishes parameters and competencies 
for the training and development of supervisors, managers and 
executives, and helps develop the skills needed to perform 
effectively in these positions.
    In addition, the program's participants serve as a pool of 
well-trained and qualified applicants for consideration for 
higher more senior managerial positions.
    In 2006, we enhanced our agency leadership development 
program through employee participation and the Council For 
Excellence and Government Fellowship Program with the selection 
of three staff members. This development program is designed to 
improve the performance and accountability of government 
workers and is targeted specifically for those at GS-14 and GS-
15 levels. Next year which will have two more employees 
participate in this program.
    Additionally we proactively worked to recruit diverse new 
hires by expanding our outreach efforts to attract a diverse 
candidate pool. AOC career opportunities are advertised 
nationwide in OPMs, USAJobs Web site. We also have contracted 
for system for implementing our human capital strategy. One of 
the tools that we utilize heavily is the Contractors 
Association with various diverse organizations, societies, 
colleges and universities, and professional associations that 
allow us to electronically distribute an unlimited number of 
vacancy announcements. In addition, our recruitment manager 
conducts training sessions with staff on how to most 
effectively use our resources.
    The AOC has also participated in a number of recruitment 
events to increase awareness of job opportunities in our 
agency. This past summer, we attended the federally Employed 
Women's Job Fair Conference, and Mayor Fenty's D.C.-wide Job 
Fair. Over the past several years, we have been participating 
and Representative Albert Wynn's annual job fair, and later 
this week, we will be attending the Asian Job Fair.
    We are now finalizing our affirmative employment program, 
which further delineates our commitment to equal employment 
opportunity. Once the policy is implemented, we will develop an 
affirmative employment plan that will identify specific action-
oriented strategy efforts to achieve a more diverse work force. 
While the AOC utilizes an array of recruitment sources and 
techniques to generate an adequate pool of diverse, qualified 
applicants for job vacancies, our efforts under the affirmative 
employment plan will be expanded to include targeted 
recruitment initiatives, cooperative efforts with colleges and 
universities and stronger partnerships with national 
professional associations and local community organizations.
    Mr. Chairman, I am pleased to note that our efforts have 
borne fruit. A comparative analysis of AOC-wide and work force 
data between 2002 and 2007 shows that at the GS-15 and SES 
equivalent levels the AOC has made significant progress in the 
recruitment and selection of women candidates making up 23.1 
percent and 35.76 percent those ranks respectively. This is an 
increase over the 2002 levels of 7.7 percent in the GS-15 ranks 
and 20 percent of the SES equivalents.
    Persons of color now represent 12.8 percent of GS-15 
positions and 21.4 percent of SES equivalent positions. The AOC 
is deeply committed to our goal in attracting and retaining a 
diverse work force. However, we do recognize that we still have 
work to do. Throughout programs and initiatives we will 
demonstrate our actions speak volumes, and our work force will 
better reflect our society and we will be even more successful 
as a result of the rich diversity of our employees.
    This concludes my statement, I will be happy to answer any 
questions subsequently you may have.
    Mr. Davis of Illinois. Thank you very much.
    [The prepared statement of Ms. Bailey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. And we will go to Ms. Ruiz.

                  STATEMENT OF STEPHANIE RUIZ

    Ms. Ruiz. Mr. Chairman, Ms. Norton. The Congressional 
Budget Office leadership shares your interest in a work force 
diversity and is strongly committed to a representative work 
force. We think this is an important issue, and thank you for 
bringing attention to it.
    Today I will address the following key issues, the benefits 
of and the need for CBO's recruitment of a diverse work force 
at all levels, the challenge of recruiting staff skilled in the 
fields necessary to carry out the analyses CBO does for the 
Congress, the aggressive diversity recruiting efforts CBO 
undertakes annually, and finally CBO's recent progress toward 
greater work force diversity.
    CBO needs representative work force at all levels because 
the broad range of our analytical product benefit from diverse 
experiences and viewpoints of all of its analysts. Perhaps the 
less obvious reason is that given the specialized nature of our 
work, CBO managers must have substantive knowledge of the 
policy areas in which their analysts work and experience with 
the methodologies used to perform these analyses.
    The needs for substantive experience coupled with CBO's 
small size and flat organizational structure results in the 
majority of CBO's staff managers being promoted from within. 
Therefore, we must recruit a diverse work force at all levels 
so junior staff can gain the requisite expertise to take on 
broader roles in our agency. Roughly 80 percent of CBOs work 
force professional staff hold Ph.D.s or has Masters degrees 
generally in economics or public policy. The demographics of 
individuals completing Ph.D.s in economics poses a tremendous 
challenge in achieving a diverse work force at CBO.
    In 2005, there were approximately 1,000 individuals who 
completed a Ph.D. in economics in the United States. Only 30 
percent of them are women. Foreign nationals made up the 
majority, more than 2/3, and although we can hire some foreign 
nationals, this limits the overall pool and the diversity over 
the pool from which we can draw.
    Even more striking is that among the 284 U.S. citizens that 
entered the labor market from those 1,000 Ph.D.s, only 4.3 
percent were members of underrepresented minority groups. 
That's 44 people in the entire Nation. The numbers are even 
more disheartening given the small share of the new Ph.D. 
economist who enter government service, only 16 percent in 
2005.
    Recruiting Master's level employees is somewhat less of a 
problem given the demographics, the National Association of 
Schools of Public Affairs Administration reports that of those 
completing MPPs and MPAs in 2005, 57 percent were female and 28 
percent minorities. Not surprisingly, given these statistics, 
CBO must be both aggressive and creative in its recruiting 
efforts in order to achieve a diverse staff.
    CBO makes special efforts to reach out to women and 
minority candidates, we provide information on relevant 
employment opportunities to such groups as women and 
international security and the committee on the status of women 
in the economics profession.
    In college recruiting we--we target historically Black 
colleges and universities, HBCUs and Hispanic serving 
institutions, HSIs that have programs from which CBO may draw 
candidates. We host a substantive internship program that is 
focused on graduate students and is managed with an eye toward 
diversity. CBO interns perform analyses and are introduced to 
the challenge and reward of public service. One goal over the 
program is to encourage these interns to consider CBO 
employment full-time upon graduation. And results suggests that 
we have been successful, about 8 percent of our current work 
force are former interns. In the past 5 years, the intern class 
has been between 36 and 50 percent female, and in most years, 
it has been approximately 30 percent minority.
    Since most students who pursue Ph.D.s in economics were 
economics undergraduates, CBO does a number of things to 
encourage underrepresented--underrepresented economic students 
to pursue advance degrees and to prepare them for CBO 
positions. Specifically we present information to Morehouse/
Spelman's joint economic club, we meet with Howard on economics 
majors and we participate annually in programs designed to 
increase minority representation and Master's and Ph.D. 
programs, including the public policy international affairs 
program, which prepares under represented students for advanced 
degrees leading to careers in public service. And the American 
Economics Association Summer Program and Minority Scholarship 
program which prepares talented under graduates for doctoral 
programs in economics and related disciplines.
    In the end, a few students from underrepresented groups 
enter advanced degree programs in economics and public policy, 
we have little hope of recruiting staff and grooming future 
managers who are representative of the rich diversity of the 
U.S. population. Like his predecessor, CBO's new Director Peter 
Orszag is committed to diversity. During his short tenure, 48 
percent of the CBO staff hired have been women, including one 
female SES equivalent and 9 percent has been minorities.
    As the Human Resources Director, I know that he and our new 
Deputy Bob Sunshine have reached out to female candidates for 
positions. Last June, Dr. Orszag personally addressed the 
American Economics Association Summer Minority Scholars when 
they visited CBO for seminars about the agency and our work and 
met informally with CBO economists.
    Despite our efforts, CBO's work force is not as diverse as 
we would like it to be. CBO's most valuable resources are 
strong staff and in pursuit of that end we dedicate a great 
deal or resources to our recruitment program, including 
speaking with students from more than 60 campuses. An important 
focus has been and must continue to be the recruitment of a 
diverse work force at all levels within an organization.
    Thank you, again, for the opportunity to discuss this 
important issue. I would be delighted to hear any ideas you or 
others may have to improve the results of our diversity program 
and to take whatever questions you may as well.
    [The prepared statement of Ms. Ruiz follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much. And we'll go to 
Mr. Henratty.

                  STATEMENT OF DENNIS HANRATTY

    Mr. Henratty. Mr. Chairman, thank you for the opportunity 
to discuss diversity throughout the Library of Congress--the 
Library's senior level diversity has increased dramatically 
since 1990. Then only 12.4 percent of our senior level work 
force was minority compared with 20 percent today. The 
Library's current executive committee is comprised of 29 
percent minorities and 57 percent women.
    The Library has made a concerted effort to build and 
nurture diversity throughout its work force, even as the size 
of the Library today reflects nearly 1,200 fewer staff than 
when Dr. Billington was sworn in as Librarian of Congress 20 
years ago.
    As of June 2007, the latest date for which governmentwide 
statistics are available, minorities comprised 20 percent of 
the Library's senior leadership. In comparison, 15 percent of 
SES executives governmentwide are minorities. Also for the same 
period, 44 percent of the Library's senior leadership positions 
are held by women, compared with 29 percent of SES executives 
governmentwide. The Library also exceeds government wide levels 
of racial and gender diversity for the key GS-13 to GS-15 pay 
cluster, the Library's future leaders. Diversity at the 
Library's senior level has remained fairly constant in recent 
years. We've hired 42 permanent employees at the senior level 
since fiscal year 2002. Of these 19 percent were minorities and 
45 percent were women.
    By most measures diversity has improved among the ranks of 
the higher general schedule grade levels. Those who along with 
those recruited from outside the agency will be the next 
generation of Library senior managers. At the GS-15 level, 
minority representation has increased from 13 percent in 2002 
to 17 percent in 2007. While the percentage of Hispanics in 
this group has remained below that in the general population, 
the number of Hispanics at the GS-15 level in the Library has 
more than doubled at the same period. The percentage of women 
has remained stable.
    The Library's effort to achieve a diverse work force are 
evident through the entire process of recruiting, screening and 
collecting new employees to fill vacancies. The Office of 
Workforce Diversity develops target recruitment plans in 
collaboration with our service units based upon an analysis of 
the Library's work force profile. The information is used to 
identify specific areas to focus our targeted recruitment 
efforts.
    The Library's merit selection system keeps the goal of a 
diverse work force at the forefront throughout the process and 
includes two discrete areas where the diversity of the 
applicant pool is examined. First we create a recruitment plan 
for each individual vacancy, identifying underutilized groups 
in the Library's population compared with the civilian labor 
force.
    Second, we compare the pool of applicants to be considered 
for an interview with the underutilization data that's been 
identified in the recruitment plan. When the applicant pool 
contains members of underutilized groups, they will be added to 
create a list of up to 12 ranked candidates instead of 
forwarding the names of only 7 candidates.
    We also fill permanent positions through targeted 
recruitment outside of our merit selection plan. For example, 
under the HACU cooperative education program, qualified 
students may be converted non competitively to permanent 
conditional positions following successful completion of a 
minimum of 640 hours of career-related work at the Library. The 
Library also provides staff development program to enhance our 
staff's opportunities to advance to management positions.
    For example, our leadership development program selects 
staff and grades GS-11 through GS-13 from diverse backgrounds 
for a year-long training and development program to prepare 
them to compete for leadership and management positions at the 
Library. Since the program's inception in 1995, six leadership 
development classes have graduated 57 staff, of those, 65 
percent have been minorities and 70 percent of the graduates 
have been women, 54 percent have received new jobs or 
promotions since they graduated from the program, and a full 
two-thirds of these were minorities.
    Another example is the comprehensive development intern 
program which we can conduct periodically as resources permit. 
The program has been an excellent means for staff, including 
minorities, to move from clerical and technical to professional 
positions in grades GS-9 through GS-12 for example four 
African-American women have moved to professional ranks in my 
own office human resources services through this program.
    Finally let me reassure the committee that my office tracks 
to completion of annual performance appraisals throughout the 
Library and works with service units to ensure that any 
performance appraisals that are not completed on time will be 
completed during the next quarter. Our new master labor 
agreement with AFSCME Local 2477, the employee's union, 
contains a comprehensive performance management article that 
includes performance planning, midyear reviews, annual reviews 
and individual development plans.
    And management and labor are working collaboratively to 
implement these provisions throughout the year. I will be happy 
to answer any questions that you may have about the library's 
diversity employment or its senior level system.
    [The prepared statement of Mr. Hanratty follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. Hanratty.
    And we will go to Mr. Nichols.

                  STATEMENT OF DANIEL NICHOLS

    Mr. Nichols. Good afternoon, Mr. Chairman.
    Ms. Norton, how are you? Thank you for the opportunity to 
testify before you today on the important matter of diversity 
in the workplace. The vision of the Chief of the U.S. Capitol 
Police encompasses the importance of including a wide variety 
of perspectives and approaches, including policy development 
and its implementation within the department.
    Currently, our department is comprised of 2,085 employees, 
80 percent of which are sworn law enforcement officers, and 20 
percent are civilian employees. U.S. Capitol Police values and 
champions diversity at all levels of the department. Diversity 
brings to us a wider variety of perspectives and approaches to 
enrich our decisionmaking. According to the latest Bureau of 
Justice Statistics Bulletin for Law Enforcement Officers, the 
U.S. Capitol Police sworn work force is comprised of 34.7 
percent minority representation. Currently, at our SES 
equivalent positions, 43 percent are occupied by women and 
minorities. While we will be never be complacent in our 
efforts, we are proud of our achievements regarding diversity.
    Our ability to maintain a diverse work force differs 
between our sworn and civilian populations. With regard to 
sworn employees, to obtain optimum diversity at the SES 
equivalent level requires planning many years beforehand. 
Because we do not hire supervisory/managerial sworn employees 
from external organizations, our succession planning and 
efforts to enhance the diversity of the pool of sworn employees 
must be concentrated on recruitment efforts for entry level 
sworn positions and retention of those employees. In the 2002 
to 2006 time period, we have found that our recruitment efforts 
for entry level sworn positions have resulted in minority race/
ethnicity representation ranging between 36 to 38 percent.
    Our recruiting program of the department is a nationwide 
effort. While a significant number of applicants are from the 
Washington metropolitan area, which is itself a diversified 
employment market, our recruiters travel nationwide to targeted 
recruiting events that are geared toward women and minority 
candidates. In addition, a continual nationwide advertising 
campaign complements the recruiting efforts of the department.
    From September 2002 to September 2006, the department's 
work force has undergone significant changes both in terms of 
size and diversity. The sworn overall leadership ranks 
increased by 16 percent in size, and the population from which 
to select new leaders grew by almost 30 percent. Within the 
overall leadership group, the U.S. Capitol Police increased its 
minority representation to 30 percent, which represents a 13 
percent increase over this 4-year period.
    Within the civilian side of the police department, we have 
professionalized the ranks of our administrative processes and 
functions. In 2002, women and minorities representation in 
civilian SES equivalent positions was 40 percent. Today that 
percentage has increased to 47 percent. Our efforts in 
developing a strategic human capital plan includes the 
development of a department work force plan as well as a 
succession plan. The department is actively working to 
incorporate strategic work force diversity principles into 
planning tools that we believe will facilitate our goal of 
becoming the Federal Government's premiere law enforcement 
agency. We believe we have been successful to date, but clearly 
we strive for continued growth, responsibility and new 
opportunities for both the department's sworn and civilian work 
force.
    Mr. Chairman, Ms. Norton, that concludes my statement, and 
I will be pleased to answer any questions you may all may have.
    [The prepared statement of Mr. Nichols follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much. And I want to 
thank each one of our witnesses. And I have one question I 
would just like for each one of you to take a shot at 
answering. I have noted that all of your agencies hire the best 
and the brightest. We all work with a diverse network of 
associations and universities when looking for new hires. We 
all collect diversity and appraisal data, and have programs in 
place and programs that we are developing to support diversity, 
and yet we all have poor records. Would you venture an opinion 
or a guess as to why? I mean, it is kind of like asking, why 
have we not made any more progress than what we have made?
    Perhaps we begin with you, Ms. Elzy.
    Ms. Elzy. I think we have made significant progress in the 
last 5 years as far as our feeder pool. I think that, from my 
perspective, GPO was a very male-dominated organization because 
of the trades and the crafts that it traditionally was. 
However, if you have noticed, we have made significant changes 
in our Grade 15 feeder pool. We went up from 2002 when we had 3 
percent females to almost 30 percent in 2007. Minorities in the 
Grade 15 went from 19 percent to almost 32 percent. So we have 
been really striving to ensure that we will have a more diverse 
pool of individuals who will be prepared to move into the 
senior level positions.
    Mr. Davis of Illinois. All right.
    Mr. Stroman.
    Mr. Stroman. Certainly it is a complicated question, Mr. 
Chairman. Let me say that our biggest problems at the SES level 
are with Hispanics and Asians. And certainly, given the 
increase in the demographic changes within the Hispanic and 
Asian community, I think that has created a need for us to 
reach out and develop processes to reach out to the Asian and 
Hispanic community. If you look at our feeder pool, however, 
numbers for the SES with regard to both of those organizations, 
both of those groups, they look reasonably good.
    On the other hand, I think, you know, the reality is that, 
you know, for GAO, like much of the Federal Government, up 
until the early 1970's, we were a segregated institution. And 
the Federal Government was a segregated--where we were 
segregated up until the early 1970's. It was really as a result 
of the Civil Rights Act of 1964. It was as a result of 
litigation that took place in the 1970's and 1980's that really 
forced the changes that we are--that we have made thus far. We 
are in the process of trying to put into place processes within 
the human capital processes that I think are needed to make 
these changes.
    And quite honestly, Mr. Chairman, you know, when you look 
at the composition of our offices, we are trying to do this 
without much in the way of legislation which would empower us 
to do that. Most of our offices are structured in a way which 
says that--which we have statutory and legislative 
responsibility to process complaints of discrimination. There 
is very little that gives us the authority to implement 
diversity principles within the human capital processes. We are 
trying to implement that and do that. But there is no real 
legislation which allows us to do that. It is as a result of 
our efforts, I think, working with senior managers, but I think 
much of the work is hamstrung by that lack of legislative 
hammer that would be helpful in implementing.
    Mr. Davis of Illinois. Ms. Bailey, based upon your vast 
human resources experience?
    Ms. Bailey. Well, I do think that we have made progress as 
well over the last 5 years. But I think one of the primary 
factors hindering our ability to further diversify senior level 
staff is the fact that we are dealing with a very competitive 
marketplace. We are competing against other government agencies 
and private sector employers who are offering things that we 
are not in a position to do. So what it means for us is trying 
to figure out a way how we can distinguish ourselves as an 
employer of choice and also developing methods so that we can 
build name recognition. Not a lot of people know what the AOC 
or who the AOC is. So that is one of the areas that we need to 
focus our attention. Then, I think, if we get there, we can 
better attract diverse talent.
    Mr. Davis of Illinois. Ms. Ruiz.
    Ms. Ruiz. Similarly to my colleagues on the panel, I would 
say that we, too, have made definite efforts and have had 
successes in improving our diversity. In 1997, 10 years ago, 
the minority makeup of our professionals and management staff 
was 5.6 percent, and now, as of January this past year, it was 
13.8 percent. So it has more than doubled. So we have seen 
strides. And I will point out to you another thing, which is 
that we are very much struggling against the demographics that 
I described. In the early 1970's, there were less than 10 
percent women in Ph.D. economics programs. We are delighted 
that number has increased to 30 percent in 2005 and anticipate, 
hope, expect that it will continue to do so.
    And to that end, you don't see many other agencies of 230 
employees going out and making grass roots efforts to grow 
pools. When we are at Morehouse, we have senior executives who 
are saying to these young men, saying, please consider these as 
options. These are interesting and exciting options.
    And then, like my colleague at the AOC, we struggle against 
competitive markets. Any Ph.D. economist coming into the market 
who is worth their salt can go to Wall Street and make 
significantly more than any of our economists. A few years ago, 
we had a terrific financial economist, and he took an 
opportunity that was almost twice as much compensation as our 
director was making. Our current director took a pay cut to 
come to CBO. The reality is, we can't compete at that level.
    Despite all of that, I am very encouraged. Dr. Orszag, our 
new director, is very committed to this. Recently, on his own 
initiative, he started some discussions with some economists 
that he knows about how to increase our pool and things we 
could do differently and more things we can do. And so I am 
very excited by that and encouraged by it.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Hanratty.
    Mr. Hanratty. Mr. Chairman, historically the largest 
challenge that the library has had in terms of ensuring 
diversity of its senior level was to ensure the diversity of 
the GS-15 successor pool. And in 2002, minorities comprised 13 
percent of that successor pool. But today that number is 17 
percent. And this is largely a consequence of promotions. 
During that same period of 2002 to 2007, minorities accounted 
for 21 percent of all promotions at the library to GS-15. So I 
think that this bodes very well for the future.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Nichols.
    Mr. Nichols. Thank you, sir. Your question really drives to 
the heart of the challenge that we face. If you look at the 
history of the U.S. Capitol Police, we have been a structure of 
sworn employees for our history up until about 10 years ago, 
when we started to civilianize. When we started the 
civilianization effort, we were able to bring talent and 
diversity from outside the organization into very senior 
civilian positions that had never existed before.
    But clearly the decisions that were made 20 to 30 years ago 
with regard to diversity aren't where we are today. And we are 
still struggling with those decisions. The feeder group that we 
have has to walk in the front door and then be filtered up 
through the police department as a means of competitive testing 
and promotional processes. If you look at our history, we 
didn't even bring female police officers on the police 
department until the early 1970's. So we have only had the 
experience of female officers--actually, the first African 
American female officer was brought on about 30 years ago. So 
we are still trying to struggle with the feeder group and bring 
people up through the ranks. And that does impact the sworn 
diversity at our top executive level of the police department.
    Mr. Davis of Illinois. Well, thank you all very much.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I must thank you for the steadfastness you have shown ever 
since you have come to Congress as ranking member and now as 
the Chair of this subcommittee in pressing this issue of 
minority representation where one might most expect it, in the 
Federal Government. Mr. Chairman, almost all these agencies 
boasted about their minority representation have been the 
subject of lawsuits. We take special note of them here in the 
Congress, because, frankly, it is a matter of some 
embarrassment that we who are here, particularly in this 
committee and subcommittee, trying to get the private sector to 
do the right thing often see lawsuits against our own agencies.
    Mr. Chairman, I am going to have a bill for next year that 
would allow Federal workers--and legislative workers may be 
different--to apply directly to the EEOC like everybody else. 
The agency I chaired, I see no reason for the disparate 
treatment at least for Federal workers. We, of course, passed 
the bill that said that all laws that apply to us should apply 
to everyone. That is why Mr. Stroman's comment about how you 
need some laws; you don't need any more laws than the private 
sector needs--you are held under Title 7 the way everybody else 
is, so I don't see why you would need more legislation to 
proceed. Somehow others have been able to improve the top 
ranks. We are even beginning to get Blacks who are CEOs who can 
be fired because they have not produced enough revenue, as we 
have seen from two recently. The figures on the percentage of 
women and minorities are impressive.
    To tell you, as a native Washingtonian since my father's 
time, for decades the Federal Government has had a larger 
percentage. It was a little bit ahead of the private sector. 
The more you are able to show large numbers in the ranks, the 
greater the burden on you to show why they are not rising 
through the ranks like everybody else does. And we have seen it 
both for women, slight improvements; for minorities, virtually 
none.
    By the way, Ms. Bailey, you mentioned that you had gone to 
a number of local job fairs, and I commend you for that. As 
somebody who has had a job fair where literally we have had up 
to 10,000 residents come every year, we have never seen the AOC 
there.
    And I think, Mr. Chairman, that Chairman Brady has taken--
this is the chairman of the Administration Committee--is to be 
commended, because the first time I have seen any movement from 
AOC at all was when they had a special forum for small 
businesses at the Congressional Black Caucus weekend. And we 
need to see some action on employees as well. And I am pleased 
that Chairman Brady has taken this special interest.
    Mr. Stroman, before I ask you questions about what has been 
a most troublesome issue in this committee, may I ask you, do 
you understand that you don't need any more laws than other 
Federal agencies have in order to try to improve the ranks of 
the SES and of minorities in general at GAO?
    Mr. Stroman. Yes. Let me address that, Ms. Norton. What I 
mean is that all of the civil rights offices in the executive 
committee to our legislative branch committees are essentially 
focused on complaint processing. I mean, when you look at the 
legislation that we have in place now, most of the----
    Ms. Norton. Excuse me, who are focused on complaint 
processing?
    Mr. Stroman. Yes, ma'am.
    Ms. Norton. Who are?
    Mr. Stroman. The civil rights offices within the executive 
and legislative branch offices, the statutory legislation 
essentially gives them the authority to process complaints of 
discrimination. What we are talking with regard to increasing 
diversity requires oversight over the human capital processes 
within each of the agencies. And that is what I mean.
    Ms. Norton. I am not sure I understand.
    Mr. Stroman. OK.
    Ms. Norton. If anything, they shouldn't have jurisdiction 
to process their own complaints. And that is exactly what I am 
going to take from them.
    Mr. Stroman. No, no, I understand that. But I am saying, 
when you look at the statutory legislation of each of the civil 
rights offices, the legislation itself empowers them to process 
complaints of discrimination. It says nothing about personnel 
practices. It says nothing about recruitment. It says nothing 
about your ability to review ratings.
    Ms. Norton. Mr. Stroman, I am not sure what you are 
referring to. As a former Chair of the EEOC, I am here to tell 
you that they and the private sector at least in one respect 
are held to the same standard. And that is the standard of 
Title VII.
    Mr. Stroman. No, I understand that, Ms. Norton.
    Ms. Norton. Maybe if you would like to suggest some more 
legislation you need. I am distressed to hear you talk about 
the complaint process because that has been precisely the 
problem with the legislative branch agencies. And what we are 
talking about is not a complaint process, but whether these 
agencies are conscious of the need to reach out to overcome 
these disparities and whether they are conscious about what 
others in the Federal Government and in the private sector have 
done to help minorities rise. And I don't think--if you need 
more legislation, I think you will find a subcommittee and a 
committee willing to give it.
    Actually, I have a question for you about a very troubling 
GAO issue. I am wondering whether your office alerted GAO 
management of the disparities in ratings between African 
Americans and Caucasians when the Comptroller General was 
involved in the new effort to restructure that agency, creating 
huge turmoil, where this committee noted that African Americans 
had received consistently lower performance ratings than their 
White counterparts and the danger of using those ratings in the 
appraisal of effort that was underway some months ago.
    Mr. Stroman. Yes. The answer is, yes, Ms. Norton. In fact, 
we were--our office put into place a process to publicize those 
ratings.
    Ms. Norton. So you alerted the management that the process 
they were going through would build in these disparities?
    Mr. Stroman. We alerted management to the consequences of 
moving forward with the reorganization.
    Ms. Norton. Why did GAO proceed to restructure the bands in 
2006 if your office alerted management that it would have a 
negative and perhaps ultimately an illegal effect on African 
Americans?
    Mr. Davis of Illinois. Ms. Norton, could I just, before he 
answers, I understand the Second Chance is coming up, and I am 
going to ask Mr. Clay if he would take the Chair until I run 
over and make a statement, since it is my bill.
    Mr. Clay. Mr. Chairman, would it be possible for Ms. Norton 
to take the Chair? I do have a doctor's appointment. I just 
wanted to get my 5 minutes in.
    Ms. Norton. Ms. Norton is going down to speak on the Second 
Chance.
    Mr. Davis of Illinois. I will run and do it and then come 
back.
    Ms. Norton. You only have 20 minutes. We may have to 
recess. I will keep going here. And my office needs to tell me 
when Mr. Davis begins because his bill, Second Chance bill, is 
enormously important. I am sorry, Mr. Stroman, you were about 
to answer my question.
    Mr. Stroman. Yes, ma'am. As I indicated, yes, we did alert 
the Comptroller.
    Ms. Norton. But you don't know why they went ahead. They 
ignored you is what you are saying?
    Mr. Stroman. There was a decision made that the best way to 
deal with it would be to bring in an independent, outside 
contractor to review and to look at the underlying causes for 
the disparity.
    Ms. Norton. So why didn't they stop until the independent--
--
    Mr. Stroman. It was a decision that the Comptroller General 
made to go forward with the reorganization, Ms. Norton.
    Ms. Norton. Well, you have recently hired a consulting 
firm----
    Mr. Stroman. Yes, ma'am.
    Ms. Norton [continuing]. To conduct an independent 
assessment of the factors that could influence rating 
differences----
    Mr. Stroman. That is correct.
    Ms. Norton [continuing]. Between African Americans and 
others. But this committee learned that a study was recommended 
by Blacks in Government in 2004. So you had noticed that people 
were watching, recommended a study. You have gone ahead. Why 
wasn't a study conducted when you had this notice from an 
outside organization as well that a study of the kind you have 
now authorized would be necessary to keep a disparate effect 
from resulting?
    Mr. Stroman. Well, all I can tell you, Ms. Norton, is that 
the discussion with regard to contractors came up with regard 
to the reorganization. And at that point, it was the decision--
--
    Ms. Norton. Well, let me ask you this, Mr. Stroman. Will 
the study----
    Mr. Stroman. Yes, ma'am.
    Ms. Norton [continuing]. Include a review of the impact 
that the Band II restructuring has had on African Americans?
    Mr. Stroman. We know what the impact is. The question 
becomes, what are the causes of the disparities within the 
ratings? The impact has been, it has had certainly a 
disproportionate impact on African Americans at the Band II-B 
level. That there is no question about.
    Ms. Norton. Who is selecting the employees who will 
participate in the focus groups that are being interviewed by 
the consulting firm?
    Mr. Stroman. Yes, ma'am, the contractor. It was a random 
selection process by the contractor.
    Ms. Norton. This subcommittee had a very troublesome 
hearing about essentially the report that denied COLAs in 2006 
to people after the survey was done. And it is bad enough that 
we have disparate impact, but then these employees were said to 
be, colloquially, overpaid, and so, for the first time in the 
history of the Federal Government, there have been employees 
who have been denied their COLAs. And as I understand it, they 
continue to be denied their COLAs even though this committee in 
the strongest terms has indicated that was unacceptable. What 
are you doing to see to it that these employees get their COLAs 
the way 2 million other employees of the Federal Government get 
their COLAs and to therefore mitigate the continuing disparate 
impact of the original action taken?
    Mr. Stroman. Well, that, Ms. Norton, you would have to 
address to the Comptroller.
    Ms. Norton. Yeah, what is your office recommending? It is 
going to have a disparate impact. The COLAs have caused a 
conflagration in, of all places, the GAO. You have a union--I 
love unions, but that is a bad way to get one--you have a union 
now because the employees rose up against the way in which this 
was implemented both for African Americans and for others. You 
are the EEO office. What are you doing to see to it that 
African Americans and others who may be in this group do not 
continue to have their COLAs denied? That is all I am asking. I 
know that you are--I didn't ask you what GAO was doing. You are 
the guy in charge of the EEO. What are you doing?
    Mr. Stroman. I understand. We are having--we are having 
discussions with the Comptroller General. Ultimately, he has to 
make the call with regard----
    Ms. Norton. I know who is in charge, Mr. Stroman. I'll tell 
you who is going to have to make the call, Mr. Chairman, and 
the Chair. The Congress of the United States is going to have 
to make the call because it is an outrage that nothing has 
happened thus far. And you know what, liability is building up 
for us, Mr. Chairman. If you keep denying COLAs to people who 
should have received them, then there are going to be more and 
more employees wanting their COLAs going back to when they 
didn't receive them. And you know what, I got a hard time 
telling them that there is no basis to get COLAs you should 
have received 5 years ago because somehow or the other the 
Treasury of the United States is going to have to come up with 
them now. And Mr. Chairman, I will be back.
    Mr. Clay [presiding]. Thank the gentlelady from the 
District of Columbia. Let me start with Ms. Elzy. Let me ask 
you about what steps does GPO plan to take to increase the 
representation of minorities and women in its SES?
    Ms. Elzy. We have a lot of things in place where we are 
trying to--we have a fellows program, so we can give them 
additional skills, individuals who are interested in 
progressing into leadership positions. And as I previously 
stated, we are doing very well as far as the promotion and 
hiring of individuals into the 13 to 15 grade level. And it 
significantly increased over the last 5 years.
    Mr. Clay. And how does this differ from what GPO has done 
in the past?
    Ms. Elzy. In the past, I think it was a big cultural change 
for GPO to go ahead and have minorities and females in more 
leadership positions. And I do think that they are making a 
significant change. There has been an increase from 1997 to 
2005 and, again, from 2005 to 2007 in both SES and Grade 15.
    Mr. Clay. And what does GPO plan to do to increase the 
representation of Asian American officials in the SES ranks?
    Ms. Elzy. We have recently promoted more Asians into the 
Grade 15 and also into the Grades 13 to 15.
    Mr. Clay. All right. Thank you so much for that. Let me go 
to Ms. Bailey. What steps does the AOC plan to take to increase 
the representation of minorities and women in its SES?
    Ms. Bailey. The AOC has and will continue to engage in a 
number of efforts to affirmatively recruit minorities and women 
into their SES and GS-15 positions. In the 11 months that I 
have been there, I have been working to develop and implement 
the agency's Affirmative Employment Program. And that will 
include and has included a number of good faith efforts to 
increase our diversity. And they include targeted recruitment 
initiatives for women, minorities and persons with 
disabilities; expanding our recruitment efforts when the pool 
fails to identify sufficient diversity in the applicant pool 
for any given position. We are building partnerships with 
professional associations. Right now we are heavily recruiting 
for the CVC, to staff that. We have been working with the 
American Association of African American Museums, for example. 
We are cooperatively working with colleges and universities. 
And I think it is important to note that, earlier this year, 
the leadership determined that all of our senior leaders would 
be required to attend a mandatory training program in EEO in 
diversity so they would understand what the goal is and the 
commitment is to diversity, to increase diversity at those 
levels.
    Mr. Clay. What did you find? What was the situation when 
you came 11 months ago to the AOC? What did you find that was 
just glaring disparities? Did you see any glaring disparities?
    Ms. Bailey. Well, in the absence of analyzing our work 
force data, because that has not yet occurred, I am not really 
in a position to determine or share with you what the numbers 
reveal. But I do recognize that there is some work to do just 
based upon the report that came out today in our own cursory 
analysis of the data from 2002 to 2007.
    Mr. Clay. Now the architect hires the people who wear the 
blue shirts; right?
    Ms. Bailey. Correct.
    Mr. Clay. Don't you employ them?
    Ms. Bailey. Correct.
    Mr. Clay. OK. Let me share with you one of my concerns. As 
a college student, I worked on the Hill in the late 1970's. And 
I came back 17 years later. And some of the same people still 
worked there making the same salary. Now does the COLA apply to 
them, too, where they have missed years of COLAs?
    Ms. Bailey. No, they have been entitled to, as far as I 
know--I probably would need to check further--but I have not 
heard nor am I aware that they have not gotten the COLAs that 
all the other employees are entitled to. But I will be happy to 
research that information.
    Mr. Clay. Would you, Ms. Bailey? Because I have heard from 
numerous employees of the Architect who say that they are 
attempting to raise a family and they make woefully low 
salaries. And these are people that I have known for almost 30 
years who have worked in this position. And that should be 
looked at.
    Ms. Bailey. I will do that.
    Mr. Clay. The whole salary structure in your office is 
woefully insufficient. And if you have somebody working 30 
years and they are making $24,000 a year, there is something 
wrong.
    Ms. Bailey. I agree. I agree.
    Mr. Clay. And so it tells me that perhaps they didn't 
receive COLAs either. I would love for you to report back to 
this committee.
    Ms. Bailey. I will do that, sir.
    Mr. Clay. Let me also ask you, minorities and women in the 
AOC's GS-15 level successor pool comprised a smaller percentage 
than its SES corps. Now the report, I want to say said that--
what does AOC intend to do to improve minority and female 
representation at the GS-15 level? Go ahead and try to answer.
    Ms. Bailey. Pretty much what I have already outlined. We 
are going to make sure that we develop targeted recruitment 
initiatives for candidates at that level; really build our 
partnerships with professional associations with the 
backgrounds that we are looking for.
    Mr. Clay. Ms. Bailey, can you pull the mike closer, please?
    Ms. Bailey. Sure.
    Mr. Clay. It is hard to hear.
    Ms. Bailey. As I said before, we are going to be targeting 
specific recruitment initiatives for women, minorities at that 
level, building our partnerships with professional associations 
in the fields that we are looking for. We know that is an area 
that we need to address. And that serves as the feeder pool for 
our SES equivalents. And so we are ready and prepared to make 
the necessary--or implement the necessary actions to increase 
diversity at those levels.
    Mr. Clay. At 7.9 percent of the top positions filled with 
minorities, what has been the obstacles in the past of 
recruiting qualified bona fide minorities?
    Ms. Bailey. As I said earlier, in the 11 months that I have 
been there, I really believe it is our ability to compete with 
the labor market the way that it is. I think we need to do some 
work in establishing ourselves as an employer of choice and 
getting people to recognize what the AOC is and what we do. I 
don't think there is a lot of name recognition for our agency. 
So that is one of the areas that we need to work on and 
develop.
    Mr. Clay. OK. Thank you for that response.
    Ms. Ruiz, we understand from your testimony that CBO faces 
challenges in improving its minority and female representation 
in SES corps. The report just released from this committee says 
that an applicant pool is devoid of diversity, your applicant 
pool. What do you all--in what ways do CBO's planned efforts to 
increase its representation differ from what it has done in the 
past?
    Ms. Ruiz. Yes, sir. A couple of things. No. 1, I came to 
CBO as an H.R. Specialist in 1999. And that was the first time 
that the agency put together a comprehensive recruitment plan. 
And since that time, we have established a very solid, 
comprehensive recruitment plan that we review and analyze every 
year. A big component of that is grass roots outreach to 
students from HBCUs, large flagship institutions that have 
minority populations that are greater than others, and other 
individuals who would be underrepresented in the economics 
pool.
    The reality is, it takes about 5 to 7 years to get a Ph.D. 
And so any efforts that we would be--any results that we would 
be seeing from those efforts would just now be coming to 
fruition. And we are seeing increases in the diversity. The 
pool is nearly devoid. I wouldn't say that there are no 
minority candidates. In 2005, there were 44 individuals who 
completed Ph.D.s in economics.
    The second part of our problem is compensation. Like my 
colleague from the AOC said, we are public service. And so we 
have to rely on our organization's importance to the Congress, 
the service that we provide to the public and other kinds of 
things like that. As Dr. Orszag said--Dr. Orszag is our new 
director--as he said recently, he has to make CBO an exciting 
and creative and challenging place to work because individuals 
coming out of Ph.D. programs in economics can go to Wall Street 
and earn twice what they make at CBO. They can go into academia 
at the top schools and make more than they make at CBO. So we 
have that challenge as well to face.
    Mr. Clay. Well, right now, have you worked outside of the 
box to try to attract economists and Ph.D.s to your agency?
    Ms. Ruiz. Yes, sir. There are a couple of organizations. 
The American Economics Association is the primary economics or 
professional association for economists. The AEA, the American 
Economics Association, does a couple of things. They have a 
committee on the status of women in the economics profession, 
and we work with them, provide them all of our announcements, 
talk with them about creative ideas to increase women within 
our work force. More importantly, we think, they provide a 
summer program to top talent undergraduate students identified. 
Principally, these are students who have economics undergrads, 
but oftentimes math as well, because that is a strong leader to 
economics. And what they do is they take these students onto 
campuses across the country. The campus rotates. It was 
recently at Duke. I believe it has moved to California for the 
coming year. And they provide students a couple of things, 
academic preparation in econometrics and higher statistical 
math to help them prepare for Ph.D. programs, and they 
introduce them to employers who will be able to show them the 
benefits of pursuing a degree in economics. CBO for the last 5 
years has participated in that program 4 of the last 5 years. 
We have done everything from send staff to do seminars there 
about our work. Three of our directors in the past years have 
actually gone to the program and met with the students or met 
with the students individually when they have come to CBO. Last 
summer, we were delighted that the folks were at Duke, and so 
they were able to bring up about 50 students and faculty to 
CBO. We hosted them for a luncheon and informal meetings, 
dialog with our economists. And then we did a seminar. Dr. 
Orszag, our new director, spoke with them about CBO and the 
importance of our work. And then two of our more junior 
economists presented work to show how exciting and dynamic the 
types of things we can do can be.
    Mr. Clay. How many of those students are on track to come 
in to join your agency?
    Ms. Ruiz. Well, we have all of their contact information, 
and they are still undergraduates, sir. So if they left 
undergraduate programs last year and entered econ programs, the 
yield rate from this program I wouldn't know the rates of, but 
I would expect that it is not 100 percent.
    Mr. Clay. Do you offer internships to these students?
    Ms. Ruiz. Yes, sir, we do.
    Mr. Clay. How many do you give a year?
    Ms. Ruiz. We have had one intern from the AEA's summer 
minority program and--or excuse me, from a similar program, the 
PPIA, which is similar, but for students pursuing masters 
degrees. And generally, our internship program we manage with 
an eye toward diversity. And in fact, our intern pool in the 
last 5 years has been between 30 and 50 percent--excuse me, 
between 36 and 50 percent female, and generally around 30 
percent minority, the low number being 21 percent, the high 
number being 36.5 percent. And interestingly, sir, if I could 
add----
    Mr. Clay. Sure.
    Ms. Ruiz [continuing]. We have been very successful when we 
have worked with students on campuses or in PPIA or similar 
programs to then have those folks come on as internships and 
then have them join us as full-time employees. We find that it 
is about establishing a relationship with the student that can 
start earlier. We are more successful in that regard than in 
just going out and talking to masses.
    Mr. Clay. OK. Thank you for that response.
    Let me go to Mr. Stroman. The first payouts under GAO's new 
pay system began in January 2006. The number of resignations by 
African Americans at GAO in 2006, 20 of them, was 90 percent 
higher than the average of the previous 7 years, which was 11 
per year on average. Also, 2006 evidenced the second highest 
number of transfers to other agencies by African Americans in 
the last 8 years. What, other than the implementation of GAO's 
new pay system, could be causing those trends?
    Mr. Stroman. Well, I have to take a look at who actually 
transferred, Mr. Clay, but certainly I would suspect that the 
reorganization played an important role in those decisions.
    Mr. Clay. Well, it is 20 in 2006. On average, it is 11 per 
year. GAO's new pay-for-performance system was approved in 2004 
and began to be implemented shortly thereafter. The average 
number of resignations by GAO women since 2004 was about 20 
percent higher than in the previous 5 years. And the number of 
women transferring to other agencies has increased each year 
since 2004. So what steps does GAO plan to take to increase?
    Mr. Stroman. Well, again, Mr. Clay, I would need to look at 
the statistics. I believe----
    Mr. Clay. I am just sharing with you the statistics.
    Mr. Stroman. No, I understand. What I am saying, though, is 
I believe that the women who left were in the administrative 
classifications. But I need to go back and take a look at that. 
And I think certainly there are limiting opportunities in the 
administrative field than there are in the professional field. 
But I would certainly, again, be happy to provide that to you 
for the record.
    Mr. Clay. OK. Next question. GAO had the lowest percentage 
of Hispanics in its SES among the six legislative branch 
agencies specifically. How does GAO plan to address this gap?
    Mr. Stroman. Well, again, if you look into our feeder pool, 
which is immediately under the GS--I mean the SES, our feeder 
pool numbers are at governmentwide levels. So we believe that 
the feeder pool puts us in a very good position. And if you go 
down below that to the Band II and the Band Is, the percentages 
of Hispanics in those bands are even higher. So over the next 
several years, we think that the feeder pools will allow 
ascension into the SES at a commensurate level.
    Mr. Clay. So you have representative levels of----
    Mr. Stroman. Yes. At the level immediately below the SES, 
there's representative levels. And below that level there's 
even higher representation.
    Mr. Clay. OK. Thank you so much for that response.
    Turning to Mr. Hanratty, although the Library of Congress 
had a slightly higher percentage of minorities in its SES than 
did the other legislative branch agencies in fiscal year 2007, 
the percentage of minorities in the SES decreased each year 
except for fiscal year 2007, when it remained steady. Has the 
Library made any effort to identify what factors contributed to 
this downward trend? And if so, what have you found?
    Mr. Hanratty. Yes, Mr. Chairman, I believe that the 
principal factor that was contributing to the downward trend 
was the relatively comparatively small feeder pool at the GS-15 
level. And that is an issue that we have addressed. We have 
made substantial gains since fiscal year 2002. As I mentioned 
previously, we have gone from 13 percent to 17 percent of 
minorities at the GS-15 level. So that, as senior level 
positions emerge, we have a much stronger feeder pool. And so 
that is--in our opinion, that is the principal factor that 
contributed to the downward trend between 2002 and 2007. And I 
believe we have addressed that.
    Mr. Clay. Would you say, I guess, the smaller feeder pools 
in the past were a result of the culture of the Library and the 
people that made the decisions to supply these feeder pools or 
to select those who would be on track for promotions?
    Mr. Hanratty. No, I wouldn't say it is a consequence of a 
cultural issue. I think we had--in 2001, we completely revamped 
our merit selection system. And that was in response to our 
settlement agreement from the early 1990's. And we built in a 
number of additional checks and balances that did not exist in 
that previous system. For example, creating recruitment plans 
at the individual vacancy level. And second, ensuring that, at 
the applicant pool stage, that the pool is enriched with 
underutilized candidates. So I think those factors have really 
resulted in the increase that you are now seeing at the GS-15 
level. And I believe that will bear fruit in the coming years 
with respect to the senior level as well.
    Mr. Clay. If we called you back here next year would 
representation of minorities in the SES, would you be able to 
come back here and tell us that it has increased?
    Mr. Hanratty. I would certainly hope so, Mr. Chairman.
    Mr. Clay. And would it have increased exponentially?
    Mr. Hanratty. I can't say for certain. But we will 
certainly do our very best, and we are doing our very best 
right now to ensure that we have as strong a minority presence 
at the senior level as possible.
    Mr. Clay. OK. If I were to walk over to the Library and 
just pick out any employee and talk to them, what kind of 
reaction would I get from say an African American female who 
had been there 20 years? What kind of reaction? What kind of 
evaluation of the agency would she give me?
    Mr. Hanratty. Well, I can't say, Mr. Chairman. But I feel 
confident that we have put into place a number of excellent 
programs to enhance minority representation at the Library. I 
mentioned at the beginning of my testimony the close 
collaboration that we have established with the AFSCME Local 
2477. That is the employees union. They are representing the 
paraprofessional employees at the Library of Congress. As a 
result of this close collaboration that we have with AFSCME 
Local 2477, we are developing as we speak a career development 
program aimed specifically at that GS-2 to GS-8 level. We hope 
to have a pilot in place within the next few months. And then 
following the successful review of that pilot, to implement 
that program on a larger scale at the end of the fiscal year. 
So we are taking very aggressive steps in trying to ensure that 
opportunities exist not merely for those at the top but also 
throughout the ranks of the Library of Congress.
    Mr. Clay. OK. Let me ask you about pay. Minority SES 
officials at the Library received on average $1,699 less than 
nonminorities in fiscal year 2007. Why do you think that is and 
what does the Library intend to do to address this issue? And 
what role does the Library's Performance Review Board play in 
issuing performance-based pay and awards? And are there 
minority and women members on that board?
    Mr. Hanratty. We have a Performance Review Board, Mr. 
Chairman, that reviews the appraisals from each of the service 
units. And it is specifically designed to ensure equity and 
consistency across ratings. So that is a check and balance that 
exists right in the system right now. The disparity that you 
indicated in terms of total compensation between minorities and 
nonminorities again is a relatively small percentage. We are 
talking about 1 percent in terms of total compensation. But the 
point I would like to make is that it is going to be very 
difficult to achieve equity across minorities, nonminorities, 
men, women, at any given slice of time because we may be having 
employees coming into the senior level system at a relatively 
low level as opposed to those who have been in the system for a 
number of years and have reached the statutory cap for pay. So 
you could have two individuals who are coming into the system 
or who are being rated at the same time in the system; one 
might have a pay several thousand dollars lower than the 
employee who has been there for several years. So you have that 
built in factor that will be very difficult to address in any 
particular year.
    Mr. Clay. Mr. Hanratty, that is an interesting way to 
explain the facts. Now you say it is 1 percent. But I bet you 
it makes a difference to the people who get the 1 percent less. 
And you have thrown out some facts that may or may not be true, 
whether time served and all of that. Just as I explained to Ms. 
Bailey, there are people who have been here for 30 years and 
haven't received adequate pay increases. And I am willing to 
bet it is the same at the Library. This is about equity and 
fairness. This is about paying people what they are worth, 
paying them what they deserve. Now how do you think those 
employees feel who are getting $1,700 less a year than their 
counterpart? That is probably not too rewarding for them. And 
it probably has an effect on morale when you are paying 
somebody who does the same job less. This is about equity and 
fairness. And so, I mean, I hear what you are saying, but it 
certainly doesn't make it right. And it is not a good reason. I 
would ask that the Library take a look at pay equity.
    Mr. Hanratty. We will.
    Mr. Clay. Thank you.
    Mr. Nichols, you testified that the sworn Capitol Police 
work force is comprised of 34.7 percent minority 
representation, in contrast to the data that the USCP provided 
to us, which showed that minorities comprised 38.7 percent of 
the work force. Similarly, you state that 43 percent of Capitol 
Police SES positions are occupied by women and minorities. The 
data from Capitol Police in fiscal year 2007 showed 3 
minorities, which is 13 percent of the SES, and 6 women, which 
is 26.1 percent, which ads up to 39.1 percent, not 43 percent. 
Further, your statement begins by stating that the department 
is comprised of 2,085 employees. And 80 percent of 2,085 is 
1,668, which according to your statement is the number of sworn 
law enforcement officers. However, the information provided to 
the subcommittee was that the number of staff was 2,001 at the 
Capitol Police. Can you explain these differences?
    Mr. Nichols. I would have to go back and look at the 
information that was provided to the committee. The question I 
have is if the two recruit classes were included in the 
statistical information that was provided to you. Because they 
haven't been sworn in as police officers yet. They shouldn't be 
carried on our rolls, because they haven't been sworn in as 
police officers. That may account for the disparity on the 
sworn side.
    Mr. Clay. And that is explainable. I mean, that is 
understandable. Your total number of SES total in the 
department is what?
    Mr. Nichols. Twenty-one.
    Mr. Clay. Twenty-one?
    Mr. Nichols. Yes, sir.
    Mr. Clay. All right.
    Mr. Nichols. And if I could explain, that is also broken 
down between sworn and civilian. That is the total SES 
complement of the police department.
    Mr. Clay. I see.
    Mr. Nichols. So the SES equivalent for a sworn is a deputy 
chief or above.
    Mr. Clay. What steps does the Capitol Police plan to take 
to increase the representation of minorities and women in its 
SES? Are there some who are on track now to be promoted?
    Mr. Nichols. There are some who are on track now. I have 
had--you asked the person who preceded me what somebody would 
say if you talked to them about their feelings on their agency. 
I have had these conversations. I think that the one thing that 
we have to do is to build confidence in the promotional process 
that it is fair and open and that the door is open. If you want 
to take advantage of going up through the ranks of the police 
department, regardless of your gender or ethnicity, that the 
opportunity is there. Perhaps we haven't done a good job of 
imparting that level of confidence in the minority officers in 
the past, but we have to do that.
    We are also on a track, the chief and I, when we were 
lieutenants on the police department recommended to the chief 
at the time that we partner with Johns Hopkins University so 
that we can start to mentor and groom officers at various 
official levels and give them the skills and capabilities to 
move up in an agency that is as complex as the U.S. Capitol 
Police has become. We are a legislative law enforcement agency, 
but when you get up to the very high levels, it is a business 
that we are running. And you have to understand the business 
concepts in addition to the law enforcement concepts. So we are 
trying to lay the foundation and make sure that we have a 
diverse group of people who are eligible to go through that 
program as well as many others.
    The other thing that I have seen, Mr. Clay, is the 
mentoring that should be done by the people at my level and the 
people immediately below me with the feeder group needs to be 
embraced. And we really need to facilitate that better, to 
share with the younger officers who are coming up through the 
ranks the experience that we have had, how we make these 
decisions, how the different pieces of the agency work together 
and talking to people of different aspects of the police 
department. I can tell you that the mentoring side of our 
agency is not where it needs to be.
    Mr. Clay. Has the chief embraced a mentoring program or a 
mentoring process?
    Mr. Nichols. It is something that we are looking at right 
now. There are various ways. One, as I said, we have done the 
educational side. We have gone to the FBI National Academy. We 
have a fellowship with the International Association of Chiefs 
of Police. We have partnered with Johns Hopkins University, 
which the chief and I both graduated from. We are looking at 
George Washington University. And we are also looking at the 
military college.
    So we are laying the foundation for the education. We are 
bringing transparency and fairness to the promotional process. 
But the next piece of the pie that we need to fill is the 
mentoring. We have a good model we want to follow with the Air 
Force National Guard, Air National Guard, that is probably a 
good fit for U.S. Capitol Police.
    Mr. Clay. How about the part of your statement that you do 
not hire supervisory managerial sworn employees from external 
organizations? I mean, that may be an obstacle to actually 
increasing your ranks at the GS-15 level and above.
    Mr. Nichols. Well, it is something we want to look at, Mr. 
Clay, but what I don't want to do is bring in--somebody on the 
sworn side, bring in somebody from a GS-15, because that means 
we are taking away a position from a career U.S. Capitol Police 
employee who can move up and fill that position either himself 
or herself. So what we really want to do on the sworn side is, 
and even to a large extent on the civilian side, but especially 
on the sworn side because of the way we are structured, is make 
that career path within the U.S. Capitol Police open and 
inclusive and transparent so that people engage in the 
promotional process. I think that the conversations I have had 
with people is, the one thing that has probably worked against 
us over the years is that, that there is a perception, whether 
it is real or not, there is a perception that certain people 
won't get promoted no matter how well they do in the process. 
Well, we need to work on that perception, because that chills 
the effect of people moving up through the ranks. So to bring 
somebody from the outside will just further delay our ability 
to bring people up from within.
    Mr. Clay. Thank you for that response.
    Let me thank the entire panel for their responses. And we 
hope that when we invite you back we, will have better data to 
look at. Let me thank you all again for being here. This panel 
is dismissed, and we will set up for panel three. Thank you.
    Thank you for joining us.
    Panel three consists of three witnesses, and they are: 
William Bransford, who is currently the general counsel and 
lobbyist for the Senior Executives Association. Mr. Bransford 
is a partner in the law firm of Shaw, Bransford, Veilleux & 
Roth, PC, where he has practiced since 1983. His practice is 
concentrated on the representation of Federal executives, 
managers and employees before the U.S. District Courts, the 
Merit Systems Protection Board, the EEOC and the Office of 
Special Counsel.
    Welcome, Mr. Bransford.
    Also we have Ms. Shirley Jones, who is the current 
president of the GAO Chapter of Blacks in Government. She was 
first elected president in 2005 and was re-elected in January 
2007. Ms. Jones is assistant general counsel in the Office of 
General Counsel at the U.S. Government Accountability Office. 
In this role, she is responsible for supervising the legal 
support for the strategic issues mission team work related to 
tax policy and administration.
    Welcome, Ms. Jones.
    Lieutenant Sharon Blackmon-Malloy is president of the U.S. 
Capitol Black Police Association. She has served in this 
capacity for 8 years. Lieutenant Blackmon-Malloy joined the 
U.S. Capitol Police force in October 1982 and, after 25 years 
of dedicated law enforcement service, retired last month.
    Welcome to all three.
    And it is the policy of the Oversight and Government Reform 
Committee to swear you in. Would you all please stand and raise 
your right hands?
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect they have answered in the 
affirmative.
    We will begin with Mr. Bransford.

  STATEMENTS OF WILLIAM L. BRANSFORD, GENERAL COUNSEL, SENIOR 
EXECUTIVES ASSOCIATION; SHIRLEY A. JONES, PRESIDENT, BLACKS IN 
 GOVERNMENT, GAO USACE CHAPTER; AND LIEUTENANT SHARON BLACKMON-
    MALLOY, PRESIDENT, U.S. CAPITOL BLACK POLICE ASSOCIATION

                 STATEMENT OF WILLIAM BRANSFORD

    Mr. Bransford. Thank you, Mr. Chairman. The Senior 
Executives Association appreciates the subcommittee's focus on 
the important topic of how to promote diversity in the senior 
ranks of Government.
    We believe the SES of the future must fully represent the 
diversity of America. It is not only the right thing to do, but 
achieving diversity will pay dividends by producing a 
Government led by executives who are even better to respond to 
and provide services to all Americans. SEA believes this is 
achievable only through proper data, a strong pipeline and, 
most of all, strong central leadership on this issue.
    Legislative branch agencies tend to follow the same 
guidelines as those in the executive branch when it comes to 
career executive personnel. We understand that the systems vary 
in different agencies, but merit selection plans apply, and 
general principles of requiring executive leadership 
qualifications are also applicable.
    Executive and legislative branch agencies also share 
similar problems when it comes to their SES corps. Both have 
concerns about diversity and developing the pipeline of 
candidates being trained and recruited to become a part of the 
SES.
    SEA has stated its support in the past for greater 
collection of data on the SES. We would like to see OPM, the 
Office of Personnel Management, be a greater guide for the SES 
by collecting better data. Consolidating policies and programs 
into one office and acting as a clearinghouse for agencies in 
need of guidance, the central office will be invaluable in 
guiding the SES to greater diversity.
    A central OPM SES resource office can provide best 
practices for both executive and legislative branch agencies. 
SEA believes that legislative branch agencies could be required 
to meet periodically with a central SES resource office at the 
Office of Personnel Management. Without such an office, as is 
currently the case, there will continue to be no central voice 
of leadership on SES matters, and many agencies will continue 
to implement SES policy differently on issues ranging from 
diversity to pay and performance issues.
    SEA would also suggest legislative branch agencies consider 
a council which provides coordination for sharing best 
practices on diversity and addressing pipeline issues. This 
would contribute to ensuring best practices when it comes to 
hiring a diverse work force, not to mention the cohesiveness of 
the SES corps and general work force best practices as a whole.
    SEA believes that structural changes to hiring practices 
can help and should focus on both the selection process and 
pipeline development. SEA supports a proven model to allow for 
what we have termed Executive Resources Board Diversity 
Subcommittees. It is modeled after a process developed by 
former Secretary of Energy Bill Richardson, which proved 
successful during his tenure.
    This subcommittee would have oversight responsibility, 
including authority to review SES selections and to reverse any 
selection that it deemed did not provide significant outreach 
to or consideration of minority and women candidates. Further, 
this subcommittee would be responsible for ensuring a diverse 
pipeline through guiding minority outreach and leadership 
development for SES recruitment.
    We believe that Executive Resources Board Diversity 
Subcommittees consisting of agency senior executives, a 
majority of whom must be either minority or female, would be an 
effective way for legislative branch agencies to assure a 
diverse Senior Executive Service. Such a strong leadership 
group would provide proactive monitoring and management of 
diversity.
    SEA applauds Chairman Davis for taking the first steps to 
address issues concerning diversity, proper oversight and 
providing much needed data on the SES corps. SEA believes it is 
necessary to begin improving the candidate pipeline, addressing 
pay concerns, and, most of all, have better leadership if we 
are going to achieve diversity in the SES.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Mr. Bransford follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much for your testimony.
    Ms. Jones, you may proceed.

                   STATEMENT OF SHIRLEY JONES

    Ms. Jones. Mr. Chairman, thank you for this opportunity.
    For the last 3 years, I have served as the president of the 
GAO Chapter of Blacks in Government. I am here to share the 
chapter's efforts to ensure equal opportunity and to effect 
change that will lead to increased diversity at all levels, but 
particularly at the SES and equivalent levels where the most 
important agencies decisions are in fact made.
    I believe that the broad issues that I will present here 
will be similar to those present at other agencies where 
African American staff are underrepresented at the management 
level.
    These views in no way represent the views of the U.S. 
Government Accountability Office.
    Comptroller General David Walker previously made a 
statement regarding diversity at GAO that our chapter agrees 
with. In his July 24, 2006, CG chat, he said, ``America's 
strength is its diversity. As a public-sector employer and as a 
public servant with public trust, GAO has the responsibility to 
lead by example and reflect the diversity of this country.''
    This quote is particularly noteworthy for two primary 
reasons. First, if we are to achieve equal opportunity and the 
level playing field that BIG and African American staff have 
spoken out about, then there must be a strong demonstrated 
commitment to diversity from top management.
    But the quote was also important because, along with it, 
Mr. Walker also acknowledged that there continues to be a 
significant difference between the average performance 
appraisal scores between African American staff and Caucasian 
staff at GAO. This acknowledgement was particularly important 
to our BIG chapter because this is a longstanding issue that 
our chapter had brought to GAO management even before Mr. 
Walker's tenure but particularly in the 2 years preceding his 
acknowledgment.
    For example, prior to the restructuring at GAO and split of 
GAO's Band II, our chapter wrote a letter to Comptroller 
General Walker in 2004 stating our concern that African 
American staff, in particular, would be at a distinct 
disadvantage in the placement decisions. We specifically noted 
that GAO's appraisal data showed that African American 
employees at all band levels were consistently receiving the 
lowest performance appraisal scores. In that 2004 letter, we 
recommended that GAO initiate a study before proceeding with 
the restructuring to determine why African Americans 
consistently receive the lowest appraisals in the agency. 
Performance appraisal scores for 2003 through 2005 were 
ultimately, however, one of three major criteria used to make 
placement decisions and was the primary criterion that kept a 
large percentage of staff from being placed into Band II-B.
    In that letter and on numerous other occasions since then, 
we have also voiced concerns about African American staff being 
infrequently assigned analyst-in-charge opportunities, thereby 
preventing them from gaining valuable leadership opportunities.
    So with a history of expressing concerns about the 
significantly lower appraisal scores, lack of individual 
control over staffing assignments and other issues that would 
prevent African American staff from advancing, Mr. Walker's 
acknowledgment was particularly important. I personally 
believed and hoped that it signaled a commitment to initiate 
change at the agency that would enhance diversity.
    In conclusion, I believe the significant difference in 
appraisal scores and diversity issues in general are of 
personal concern to Comptroller General Walker. Our concern 
continues to be, however, that this commitment from top 
management has to also be evident in the action of front-line 
managers who are deciding on appraisal scores, making analyst-
in-charge decisions, staffing individuals to high-risk and 
high-visibility jobs and making other professional development 
decisions that may disparately impact African American staff.
    I also think that Mr. Walker and the agency took a positive 
step in rolling out a formal mentoring program. It is clear, 
however, that mentoring itself is not a cure. Rather, as this 
hearing indicates, in addition to mentors it is critical that 
African Americans and other minority staff who share our 
diverse traits are represented at the SES and upper-management 
levels so they can, in turn, serve as sponsors and advocates.
    Finally, our chapter is particularly encouraged by GAO's 
decision to bring in an outside consultant to study the 
differences in appraisal scores. We are hopeful that the study 
will, in fact, make some actionable recommendations that will 
ultimately lead to greater diversity.
    Mr. Chairman, this concludes my prepared statement. I will 
be happy to answer any questions you may have.
    [The prepared statement of Ms. Jones follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you very much, Ms. Jones.
    Ms. Blackmon-Malloy, you may proceed.

              STATEMENT OF SHARON BLACKMON-MALLOY

    Ms. Blackmon-Malloy. Thank you. Good afternoon, sir, Acting 
Clay and the committee members. My name is Sharon Blackmon-
Malloy. I am a recently retired lieutenant from the U.S. 
Capitol Police force, and I am also the current president of 
the U.S. Capitol Black Police Association.
    I am here today to speak about the serious 
underrepresentation in the upper-level ranks, in the ranks of 
captain and above in particular. I would like to provide some 
recommendations about correcting this problem. I thank you for 
this opportunity to speak about these issues. And I have 
previously submitted my testimony in its full capacity to the 
subcommittee.
    The U.S. Capitol Police Force, where I worked for a period 
of 25 years, is entrusted with the responsibility of securing 
and protecting the U.S. Capitol, the House and State office 
buildings and adjacent grounds, Member of Congress, their 
staffs and a multitude of visitors to the U.S. Capitol campus.
    The Capitol Police Black Police Association was formed in 
1990. In the early 1990's, our mission was to increase 
diversity in our police force and remedy discrimination 
practices in the area of hiring, job assignments, promotions 
and training. And as you can see today, we are still fighting 
those same struggles.
    It should be noted that between the period of 1990 and 1993 
in this agency, members of the Black Police Association 
testified in Congress several times about diversity and other 
related topics. In 1993, there was only 29 percent of the U.S. 
Capitol Police force African American, as compared to September 
2006 in which it remained 29 percent. See attached data in my 
full text testimony. Thus, there has been no change in African 
American representation within this force over a 13-year 
period.
    There has been no progress in the upper ranks of captain 
and above, where an African American woman has never served. In 
fact, it took 176 years for an African American woman to be 
promoted to the rank of lieutenant, which occurred in November 
2004. I hope that it will not take another 176 years for an 
African American woman to achieve the rank of captain in this 
U.S. Capitol Police force. I also hope that our recommendations 
for a greater diversity and less discrimination will not fall 
on deaf ears this time around.
    Recommendations: To start effecting change, Congress must 
have the will and the commitment to provide oversight and 
ensure responsibility and accountability for noncompliance and 
seriously enforce those measures. We don't need any more laws. 
Just like Congresswoman Eleanor Holmes Norton stated, the laws 
are on the book. We need to enforce what we have and abide by 
them.
    And if that does not occur, we need to--for instance, there 
could be a series of penalties for an agency's violations in 
the area of diversity and discrimination. And some of the 
consequences could start with salary decreases. Then you are 
going to promote and proceed to demotions, demotions in a 
particular rank. And if that doesn't work, removal from the 
force, because if you're not complying with what we have in 
place, then your organization shouldn't be condoning it, nor 
should Congress continue to allow it to happen.
    We took some data from the Office of Personnel Management, 
and it gives us a wealth of knowledge and opportunity and gives 
you examples of how you can go about creating that diverse work 
force. We don't have it at this time. So there are resources 
out there, a multitude of resources, that could assist us in 
overcoming these issues, so 20 years from now, my daughter is 
not sitting here testifying before your kids, telling you that 
we told you about this 20 years ago.
    We can look at the area of recruitment to start, and that 
was some of the OPM data. In the area of recruitment, we had a 
White, male lieutenant who stayed in that rank for 20 years or 
more. Now, that is clearly unacceptable. It is mainly the norm 
with this agency, and that cannot continue. You cannot have a 
commander of recruiting stay in a position for that amount of 
time and expect change to come. It is just not going to happen 
until those things are remedied.
    Hiring: We can ask our human resources division what can we 
do better to ensure that we are complying with the Nation as a 
whole and looking at the standards in which we are required to 
hire a diverse group. We want this Nation to look like--we want 
the Capitol Police force to look like the Nation that it 
represents. But if you look at it today, that is clearly not 
happening.
    Then how do you retain them once you hire them? There is a 
wealth of information that is in my testimony. It will take too 
much time to go into it.
    And commitment, commitment is the foundation for a 
successful effort to build a diverse, high-quality work force. 
This must be communicated through actions that will start from 
the top management, because if you're not committed and you're 
not demonstrating commitment to this change, it is not going to 
happen. So it starts from the top, and it filters down.
    And that's what we're asking you to help us do today. We 
need to encourage our leadership that creates an environment of 
inclusion and valued differences, clearly assign adequate 
resources to diversity activities. And if you ask our offices 
today if, do we feel as though we're included in the 
decisionmaking process, 99 percent are going to say no, because 
we feel isolated. We are isolated from the rank lieutenant on 
down. And there's a disconnect between the rank of captain and 
above. So we have a long way to go.
    We need to ensure that our employees are trained in the 
intercultural communications to address differences. What is 
your difference that's so different from mine? And if you 
really look at it, we are no different from each other, if you 
only gave each other the opportunity to share those thoughts 
and ideas, and we can grow from learning from each other. But 
if you keep it separate, then we will be back here another 20 
years from now.
    In conclusion, we are seeking a serious commitment from 
Congress, and this branch of Government is a natural place to 
start. We do not need the last plantation operating on the 
doorstep of Congress. Agencies like the U.S. Capitol Police 
force and the Federal Government in general should be a Nation 
and a world leader in promoting equality and justice for all.
    It is my hope that our leaders will take pride in ensuring 
that 15 years from now we do not find ourselves testifying 
before Congress concerning the underrepresentation of women and 
minorities within any branch of Government.
    Mr. Chairman, this concludes my formal testimony. And, 
again, I would like to thank you for giving me an opportunity 
to appear before this subcommittee. And I will be available for 
any questions that anybody might have. Thank you.
    [The prepared statement of Lieutenant Blackmon-Malloy 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. Thank you, Ms. Malloy. Now, I want to know how 
you really feel.
    Let me ask you, you spent how many years----
    Ms. Blackmon-Malloy. Twenty-five years, sir.
    Mr. Clay. Twenty-five years, and you made it to the rank of 
lieutenant.
    Ms. Blackmon-Malloy. Yes, sir.
    Mr. Clay. And you said there had never been an African 
American female above that rank?
    Ms. Blackmon-Malloy. That's correct, sir. Actually we 
have--in 2004, when I did obtain the rank of lieutenant, there 
was never a lieutenant even in that rank. So the ranking 
structure goes from sergeant lieutenant, then captain, then 
inspector and so forth.
    Mr. Clay. Let me ask you, I assume you retired because you 
had the time. What were your impressions of your total 
experience on the Capitol Police Force? You said you started in 
1982?
    Ms. Blackmon-Malloy. Yes, sir.
    Mr. Clay. OK. And then, what were your feelings the day you 
left about your total experience with the force?
    Ms. Blackmon-Malloy. I can start from the beginning, if you 
want, briefly----
    Mr. Clay. No, we don't have that kind of time, but----
    Ms. Blackmon-Malloy. It's going to be really brief. I can 
tell you my experience when I walked in the door.
    Mr. Clay. Yes, go ahead.
    Ms. Blackmon-Malloy. And I walked in--I was here 
approximately 6 months; I knew then that we had some issues. 
And so I dedicated my entire career, for the most part, to 
trying to effect change, and that's what I've done.
    The day that I left, I walked away with pride and joy. 
There have been changes. And the most progressive chief that we 
have had was Chief Terrance Gainer. And under his leadership, 
we had better morale, we had more promotions and we had more 
training. So we did progress during my 25-year tenure, so I 
want to make sure that is stated in the record as well.
    Mr. Clay. You know, Mr. Nichols testified that there are 
African American Capitol Policemen that are on track to be at 
the SES level. How much stock do you put in that?
    Ms. Blackmon-Malloy. Without taking a lot of time--I can 
give you an example. The last captain's promotion process, we 
did have outside contractors. And, you know, thanks to our 
efforts, we have been able to obtain that over the years. And 
with those outside contractors, it was the captains process--
and I have competed in all processes. And at one point I 
called--I was doing the fellowship program, so I called back 
and I was trying to get some assistance, some mentorship that 
we need to get to the next rank. And I found that the majority 
of people that was in a position to mentor me, they were part 
of the process. They had to excuse themselves from assisting.
    So it has been that way throughout my entire career, either 
as far as promotions--there is just too many--there is not 
enough African Americans willing to reach back and pull someone 
with them. So we have to struggle on our own and do the best 
that we can, while we sit back and watch other people, in 
particular White males, sail through the process. They 
accelerate their promotion track, if you want to call it. And 
there's not a diversity program or there's no diversity program 
in place where you see them moving and they get promoted.
    So it can happen. It can happen in the next 6 months; it 
can happen the next year. It doesn't have to take 20-something 
years. So it definitely can happen.
    Mr. Clay. And I couldn't agree with you more. I hope 20 
years from now your children are not here telling my children 
this same story. It should not be generational. If it is a 
culture change that's needed in the Capitol Police, then that's 
what ought to take place.
    And that's upon us, Mr. Chair, to impress that on the 
hierarchy of the police force.
    Thank you for your response.
    Ms. Jones, what do you think is the cause for significant 
difference in ratings between African Americans and Caucasian 
staff at each band level at GAO? I heard you say top management 
and front-line management must also be diverse, too, or 
culturally sensitive.
    Ms. Jones. Right.
    Mr. Clay. Is there much cultural training over there or 
sensitivity training given at GAO?
    Ms. Jones. I can't speak to that. I'm not sure if there is 
sensitivity training. I'm sure it's available. I don't know if 
they are taking advantage of it.
    Mr. Stroman, from the previous panel, has in the past cited 
insufficient or poor communication between African Americans 
and supervisors. I agree that's one of the reasons for the 
differences in appraisal scores, but I would like to offer a 
couple more reasons.
    First, I believe--I would like to believe, as Mr. Walker 
does, that there's not widespread intentional bias against 
African American employees. But I do believe the infrequent 
assignment of African Americans as analysts-in-charge and 
assigning them to high-risk and high-profile jobs, the lack of 
those opportunities for African American staff leaves their 
supervisors to place less value on their work.
    Also, I believe the performance appraisal system itself is 
a large factor. Putting aside the subjectivity of any 
performance appraisal system, GAO's system allows employees to 
be rated without the assistance of written narratives. Now, I 
don't want to dismiss GAO's decision to do away with a written 
narrative, because I know they did do it in consultation with 
the Employee Advisory Council. And that was because they wanted 
to cut down on the amount of time that people were spending on 
doing the performance appraisals. But that has also had the 
unintended effect of allowing these appraisal scores to 
basically be unjustified.
    So I believe those are two very important reasons for the 
low appraisal scores for African Americans.
    Mr. Clay. Thank you for that response.
    Mr. Bransford, in your written statement you indicate that 
OPM should play a more prominent role in improving both 
executive and legislative branch diversity.
    Given the different roles of the branches of Government, 
would you support the idea of the legislative branch agencies 
council you envision be a clearinghouse and liaison with OPM?
    Mr. Bransford. Yes, sir, Mr. Clay, I would. I think the 
idea of the council, of getting legislative branches together 
would help. But I think OPM, governmentwide, has the potential 
to provide tremendous leadership and information. And I think 
we can be creative, and it can do nothing but help.
    Mr. Clay. Thank you for your response.
    And I will turn it over to the chairman, Mr. Davis.
    Mr. Davis of Illinois [presiding]. Thank you very much, Mr. 
Clay. And let me say I hope you will be here 20 years from now 
to carry on. I don't intend to be. But, no, let me thank you 
for taking over the duties and handling the rest of this 
hearing.
    Mr. Bransford, let me ask you, you indicate that this 
council may be able to coordinate best practices and give 
people the opportunity to see and know what's taking place and 
what's going on in other places.
    How would you feel about the requirement that promotions be 
based upon recommendations that a panel of at least three 
individuals would sit on and that at least one of them must be 
a woman and one of them must be a minority, and that this panel 
could make recommendations and suggestions relative to 
promotions?
    Mr. Bransford. Mr. Chairman, that, of course, is present in 
the legislation that's been introduced for the executive branch 
agencies as a requirement to come into the SES whenever a 
vacancy announcement is posted for an SES position.
    The Senior Executives Association has concerns about 
putting that in as the only way to get into the SES. And we are 
suggesting and hoping to make a case that agencies either have 
a panel, as you suggest, as a clearinghouse or a diversity 
subcommittee, as we also suggest; one or the other. In other 
words, they exercise active, aggressive leadership to make sure 
that the SES is diverse or they have a clearinghouse, whatever 
that agency culture is.
    The concern we have is that putting a requirement of a 
minority and a woman, three people on a panel, would delay the 
process, would be a bureaucratic exercise and, we think, over 
time, would lose its effectiveness.
    I understand the concept and the principle, but we do think 
it is a good option. And we think that if an agency doesn't do 
an executive panel as a clearinghouse to get into the SES, then 
it ought to demonstrate aggressive leadership to promote 
diversity, one or the other.
    Mr. Davis of Illinois. Ms. Jones, we just listened to 
testimony a few minutes ago from representatives who suggested 
that part of the problem is that many highly qualified, well-
trained females and African Americans have other options and 
that there's competitiveness in terms of where people go. We 
heard testimony about people leaving and going out and earning 
two, three times more than they would have been earning in the 
agency or more than what the director earns.
    Do you think there is a pool of qualified individuals who 
work for the Government who could move up to these ranks?
    Ms. Jones. Chairman Davis, I definitely think there is a 
highly qualified pool that exists currently in the Government 
and outside the Government.
    The statements that the previous panelist made in that 
regard I hear all the time. I recruit for GAO, and I strongly 
disagree with that statement. There are highly qualified 
African Americans and other minorities who want to be dedicated 
public servants. Of course there are going to be highly 
qualified candidates that will choose the higher-paying jobs 
over public service, but there are just as many who would 
forego those salaries and work here, just as I do.
    Mr. Davis of Illinois. Lieutenant Malloy, based upon your 
analysis, if things don't change, most of us would probably be 
gone by the time there is some serious movement within the 
ranks of the Capitol Police.
    You made some recommendations and some suggestions that I 
certainly find intriguing and concur with, but do you think 
that there's anything else that could be done on the 
recruitment end that would assist in the upward movement of 
individuals within the department?
    Ms. Blackmon-Malloy. Yes, that's correct. I think 
currently--I met with Assistant Chief Nichols before I left the 
force, and that was one of the issues that we had raised. And 
they are working to make improvements in that area as we speak. 
So there is something in place; it just has to actually be 
implemented.
    Mr. Davis of Illinois. How do you feel about this notion of 
panels where at least there are representatives from the most 
affected minority groups being on the panel that make 
recommendations?
    I have friends who are police officers, and many of them 
can't get sergeant because the supervisor won't recommend them. 
I have one friend who's got a doctorate's degree who is just 
frustrated to death because he can't get beyond the rank of 
patrolman in the Chicago Police Department, because he can't 
get a recommendation from his supervisors for merit selection 
to move up to the ranks of sergeant. I mean, I haven't been 
able to figure it out. I interact with him quite frequently. He 
seems to be a pretty intelligent guy. He's about 50 years old, 
you know, about as responsible as you can get. But he has a 
doctorate's degree and can't make sergeant in the police 
department.
    So how do you feel about this notion of individuals on 
panels?
    Ms. Blackmon-Malloy. Yes, in response to your question, 
with our agency I think for the last 6 years we've used outside 
agencies as far as promotion process for sergeants and 
lieutenants. And we do have outside panels who are a diverse 
group, so we have accomplished that mission without our ongoing 
efforts to effect change.
    But once you get past the rank of lieutenant, that rank, 
which is underrepresented by African American women--it 
currently has three White females and one Hispanic--the problem 
we are facing now is we do have an outside promotion process 
company comes in. Then there's a two-part process. There's an 
oral review panel, and then after which there's an evaluation. 
But in the evaluation period you have your same supervisors 
that you work with sitting on the panel. So that's another 
hurdle we have to work to overcome.
    We support outside panels 100 percent, and it has been 
effective over the past 6 years or so. But when we get behind 
the rank of lieutenant, then we're back to square one again, 
because the agency is involved in making the decisions, and 
they are your supervisors. And that clearly should not be 
acceptable in 2007.
    Mr. Davis of Illinois. Let me ask each one of you--and 
perhaps this might be my last question. How important a role do 
you think that subjectivity ought to play in the movement of 
individuals from one level of employment to the next level? Is 
subjectivity a major factor or does it play a major role, in 
your mind.
    Mr. Bransford. Mr. Chairman, what my experience has taught 
me is the higher you go in Government, the more subjectivity 
comes into the process. And I don't think it can be eliminated 
completely.
    But I was somewhat stunned to learn that written comments 
at GAO were eliminated and that there is a problem with 
accountability. I think most of my experience, particularly at 
the executive level or the GS-15 level, in performance 
appraisals there are comments, there are justifications for 
them. And I think that even though subjectivity comes into it, 
there needs to be some accountability, some way to judge 
whether that subjectivity that is being exercised is 
reasonable.
    Mr. Davis of Illinois. Ms. Jones.
    Ms. Jones. I agree with Mr. Walker that, in our system, 
there has to be some level of subjectivity because we don't 
make widgets, so you just can't count productivity in that 
manner.
    Where I disagree with the agency is in their oversight. Our 
agency believes it has some oversight over the appraisal 
process, but it is obviously somewhat broken. So there needs to 
be more management oversight and sufficient controls in place 
to ensure that there's equity in rewarding and recognizing 
staff through these appraisal scores but also in ensuring that 
they have opportunities to be on the jobs at GAO that are more 
highly valued.
    Mr. Davis of Illinois. Lieutenant.
    Ms. Blackmon-Malloy. Yes, I think I can speak for the 
majority of the agency employees when it comes to subjectivity. 
We all agree that is going to be with us, but if there is no 
documentation to support what you are saying, then we are back 
to square one again, where we are bringing in our own biases.
    But if there is a process in place and you can clearly the 
document why this person shouldn't receive A, B, C, or D, and 
it is documented and it can be articulated as such, then, yes, 
we will support it. But anything different than that, then 
there's going to be problems.
    Mr. Davis of Illinois. Well, let me thank all of you for 
being here, for participating and for your testimony and for 
your answers.
    I can't help but be struck by the testimony that you were 
giving when I came in. And it reminded me when there was an 
effort to abolish slavery, and every time somebody would come 
up with a good plan, there would be a lot of buts about it, a 
lot of things that could happen, until finally Frederick 
Douglass got a little agitated and suggested that there were 
those amongst us who would profess a love for freedom but yet 
deprecate agitation. And he was of the opinion that when we do 
that, it means that we want the rain without the thunder and 
the lightening.
    And so I guess in some instances we want to make sure that 
we have a diverse work force, but we don't want to do anything 
different than what we've been doing all along. Or we want 
individuals to feel like they can rise to the top based upon 
merit, based upon preparation, based upon hard work, but 
somehow or another they just never get there.
    Well, I can assure you that this committee intends that 
there be some movement on this issue, certainly during the time 
that I'm chairman of it.
    And it's agonizing, quite frankly. I have seen personally 
so many instances of discrimination. I have seen some of the 
brightest people that I've ever encountered be stymied, because 
they just reached the point of knowing that, in that particular 
situation, they will never be able to go beyond a certain 
level. And so, they are never able to experience the 
fulfillment of the American dream or the notion that to every 
man and every woman is chance, is golden opportunity to become 
whatever his manhood, womanhood, talent and ambitions combined 
to make him or her. That's sort of the promise of America.
    And so, we appreciate all of you helping us, hopefully to 
move in the direction of that promise. It's been a good 
hearing.
    I want to thank our staff for their staff work.
    Thank all of you for being here.
    And this meeting is adjourned.
    [Whereupon, at 4:42 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
